APPENDIX TABLE OF CONTENTS
Opinions and Orders
Order of Affirmance of the Supreme Court of
Nevada (February 26, 2019)..........................

la

Order Granting Costs and Attorney Fees
(November 11, 2017)......................................

11a

Order Granting Judgment as a Matter of Law
(July 28, 2017).................................................

22a

Special Jury Verdict Form
(February 23, 2017)........................................

37a

Order After Oral Arguments
(January 27, 2017)..........................................

41a

Rehearing Order
Order of the Supreme Court of Nevada Denying
Petition for Rehearing (May 14, 2019)............ 48a
Order in Related Case
Order of the Supreme Court of Nevada Affirming
the Judgment of the District Court
(July 30, 2014)...................................................... 51a

APPENDIX TABLE OF CONTENTS (Cont.)
Other Documents
Jury Instructions
(February 23, 2017)................................

58a

Docketing Statement—Civil Appeals
(September 25, 2017)..............................

77a

Appellants’ Petition for Rehearing
(March 18, 2019).....................................

93a

Third Amended Complaint
(February 24, 2010)................................

116a

Fourth Amended Complaint
(May 7, 2010)...........................................

121a

Fifth Amended Complaint
(May 21, 2010).........................................

126a

Trial Transcript of Proceedings—
Relevant Excerpt (February 14, 2017)

131a

Trial Transcript of Proceedings—
Relevant Excerpt (February 21, 2017)

133a

Email From Nancy Gilbert Confirming Issuance
136a
of Certificate of Merit (April 26, 2011).....
Altered Email Exchange with Nancy Gilbert
(March 9, 2011)...............................................

138a

Original Email Exchange with Nancy Gilbert
(March 9, 2011)..............................................

140a

Attorney Expert’s Fees & Cost

(July 25, 2019)........................................

143a

App.la

ORDER OF AFFIRMANCE OF
THE SUPREME COURT OF NEVADA
(FEBRUARY 26, 2019)
IN THE SUPREME COURT OF THE
STATE OF NEVADA
JAMES R. LAFRIEDA; and ELLEN A. LAFRIEDA,
Appellants,
v.
NANCY A GILBERT, An Individual,
Respondent.
No. 73888

JAMES R. LAFRIEDA; and ELLEN A. LAFRIEDA,
Appellants,
v.
NANCY A GILBERT, An Individual,
Respondent.
No. 74565

App.2a

JAMES R. LAFRIEDA; and ELLEN A. LAFRIEDA,
Appellants,
v.
NANCY A GILBERT, An Individual,
Respondent.
No. 74942
Before: GIBBONS, C.J., PICKERING, J.,
HARDESTY, J., PARRAGUIRRE, J.,
and STIGLICH, J.
These are consolidated appeals from a final judg­
ment and post-judgment orders-awarding attorney fees
and costs in a legal malpractice action. Second Judi­
cial District Court, Washoe County; David A. Hardy,
Judge.
The LaFriedas filed a construction defect complaint
against Building Concepts, Inc. (BCI), as well as several
other entities responsible for the design and construc­
tion of their home. The LaFriedas then hired respond­
ent, attorney Nancy Gilbert, to pursue their construc­
tion defect claims. Gilbert filed a second amended
complaint, adding Summit Engineering Corporation
(Summit) as a defendant. The claim against Summit
was later dismissed for failure to attach a certificate
of merit to the complaint as required by NRS 40.6884.
After the attorney-client relationship between
the LaFriedas and Gilbert began to deteriorate, Gilbert
moved to withdraw. When contacted by attorney Kent
Robison regarding her motion to withdraw, Gilbert

App.3a

stated in a letter that the LaFriedas’ experts found
no liability against the design professionals. Robison
opposed the motion to withdraw and attached Gilbert’s
letter as an exhibit. Based on Gilbert’s letter, BCI
sought summary judgment. The LaFriedas opposed the
motion and submitted an expert affidavit contradicting
Gilbert’s letter. The district court denied BCI’s motion
for summary judgment, concluding that a genuine
issue of material fact existed regarding BCI’s liability.
BCI and the LaFriedas subsequently settled.
Believing that they could have received a higher
settlement had it not been for Gilbert’s letter, the
LaFriedas sued Gilbert for legal malpractice in sending
the letter to Robison. The LaFriedas also alleged that
Gilbert committed malpractice by not obtaining a
certificate of merit for their claim against Summit.
The LaFriedas requested an award of general and
punitive damages. The case proceeded to trial. After
the LaFriedas presented their case-in-chief, Gilbert
moved for judgment as a matter of law under NRCP
50(a). In her motion, Gilbert argued that the LaFriedas
failed to present evidence establishing the required
state of mind, malice, for a punitive damages award.
In addition, Gilbert argued that the LaFriedas failed
to present evidence that, but for her letter, BCI
would have agreed upon a higher settlement amount,
and that the LaFriedas failed to produce required
expert testimony for the legal malpractice claim
involving Summit. The district court granted Gilbert’s
motion as it pertained to punitive damages but denied
Gilbert’s latter two requests regarding BCI and Sum­
mit.
The parties presented additional evidence, and the
case was submitted to the jury. The jury returned a

App.4a

verdict in favor of the LaFriedas on the claim involving
BCI but found that Gilbert did not breach the standard
of care on the claim involving Summit. Gilbert renewed
her motion for judgment as a matter of law, once again
arguing that the LaFriedas failed to present evidence
proving that Gilbert’s letter caused a lower settlement
amount. The district court agreed with Gilbert and
granted her motion. Thereafter, pursuant to NRCP 68,
Gilbert filed a motion requesting costs and attorney
fees because the LaFriedas rejected her $100,000 offer
of judgment, which the district court granted. We
affirm the district court’s grant of Gilbert’s NRCP
50(b) motion and the award of costs and attorney fees.
Gilbert Preserved Her Right to Renew Her Motion
for Judgment as a Matter of Law
The LaFriedas contend that Gilbert waived her
right to seek judgment as a matter of law because
she did not file her initial motion for judgment as a
matter of law at the close of all the evidence in the
case. Gilbert argues that her motion for judgment as
a matter of law made at the close of the LaFriedas’
case-in-chief preserved her right to renew her motion
post-trial. We agree with Gilbert.
De novo review applies to questions of law, includ­
ing the proper interpretation of a statute or court
rule. Vanguard Piping Sys., Inc. v. Eighth Judicial Dist.
Court, 129 Nev. 602, 607, 309 P.3d 1017, 1020 (2013).
This court will not go beyond the plain meaning of a
rule whose text is unambiguous. Nev. Dep’t of Corrs.
v. York Claims Servs., Inc., 131 Nev. 199, 203, 348
P.3d 1010, 1013 (2015). But if the rule’s text is ambigu­
ous, meaning the rule is capable of more than one
reasonable interpretation, the plain meaning princi-

App.5a

pies do not apply. Id. at 203-04, 348 P.3d at 1013.
Instead, this court will look to extrinsic aids such as
legislative history to disambiguate the rule. Coleman
v. State, 134 Nev., Adv. Op. 28, 416 P.3d 238, 240
(2018). This court will refer to the rule’s language,
the specific context that the language is used, and
the broader context of the rule as a whole to deter­
mine whether the rule is plain or ambiguous. Nev.
Dep’t of Corrs., 131 Nev. at 204, 348 P.3d at 1013.
NRCP 50(a)(2) provides that “[mlotions for judg­
ment as a matter of law may be made at the close of
the evidence offered by the nonmoving party or at the
close of the case.” (Emphasis added.) NRCP 50(b), in
part, provides:
If, for any reason, the court does not grant a
motion for judgment as a matter of law
made at the close of all the evidence, the
court is considered to have submitted the
action to the jury subject to the court’s later
deciding the legal questions raised by the
motion. The movant may renew its request
for judgment as a matter of law. . . .
(Emphases added.) On one hand, it is reasonable to
read NRCP 50(b) to allow a party to renew his or her
motion only if the district court does not grant a motion
for-judgment as a matter of law made at the close of
the evidence. This is, after all, what NRCP 50(b) says.
On the other hand, when NRCP 50 is read as a whole,
it is also reasonable to interpret NRCP 50 as allowing
a renewed motion under NRCP 50(b) to follow a motion
made either at the close of the plaintiffs case or at the
close of the evidence under NRCP 50(a)(2). We there­
fore conclude that NRCP 50 is ambiguous.

App.6a

NRCP 50’s ambiguity is quickly resolved upon an
examination of its legislative history. The Drafter’s
Note to the 2004 amendment of NRCP 50 unequivocally
states that “a ‘renewed’ motion filed under [NRCP
50(b)] must have been preceded by a motion filed at
the time permitted by [NRCP 50(a)(2)].” In this case,
Gilbert moved for judgment as a matter of law at the
close of the evidence offered by the LaFriedas pursuant
to NRCP 50(a). Thus, Gilbert preserved her right to
renew her motion for judgment as a matter of law under
NRCP 50(b). 1
The district court did not err in granting Gilbert’s
NRCP 50(b) motion
The LaFriedas argue that the district court erred
in concluding that they did not show sufficient evidence
that Gilbert was the proximate cause of their damages.
We disagree.2
To establish a legal malpractice claim, the plaintiff
must demonstrate duty, breach, and resulting damages.
Day v. Zubel, 112 Nev. 972, 976, 922 P.2d 536, 538
1 Gilbert’s NRCP 50(a) and NRCP 50(b) motions presented the
same argument, which was that the LaFriedas failed to present
evidence showing that BCI would have agreed upon a higher
settlement amount had it not been for Gilbert’s letter. Thus, we
reject the LaFriedas’ contrary contention.
2 We need not address the LaFriedas; argument that the dis­
trict court should have ruled as a matter of law that Gilbert
breached her standard of care when she failed to obtain a
certificate of merit against Summit; as the LaFriedas failed to
raise this argument before the district court. Old Aztec Mine,
Inc. v. Brown, 97 Nev. 49, 52; 623 P.2d 981, 983 (1981) (“A point
not urged in the trial court, unless it goes to the jurisdiction of
that court, is deemed to have been waived and will not be
considered on appeal.”).

App.7a

(1996). The law requires the plaintiff to show that “but
for” the negligence of the attorney, a better result
would have been achieved in the underlying action.
Orrick Herrington & Sutcliffe LLP v. Superior Court,
132 Cal. Rptr.2d 658, 661 (Ct. App. 2003) (referred to
as the “better result” standard). The purpose of the
“better result” standard “is to avoid damages based
on pure speculation and conjecture.” Id. A legal mal­
practice claim requires more, in other words, than a
claim that an attorney made an inconsequential mis­
take. Id. at 662.
Here, the LaFriedas failed to present evidence
that BCI would have agreed to a higher settlement
amount had it not been for Gilbert’s letter. Rather,
the LaFriedas’ evidence shows that their decision to
settle was theirs and theirs alone, made with the
assistance of new counsel. Although Gilbert may have
erred by publishing the letter, concluding that Gilbert’s
letter prevented the LaFriedas from obtaining a higher
settlement amount with BCI would lead to damages
based on speculation and conjecture. We therefore
conclude that the district court did not err by granting
Gilbert’s motion for judgment as a matter of law under
NRCP 50(b).3
3 We also disagree with the LaFriedas’ contention that the district
court erred by refusing to allow them to present the issue of
punitive damages to the jury. See Smith’s Food & Drug Cts.,
Inc. v. Bellegarde, 114 Nev. 602, 606, 958 P.2d 1208, 1211 (1998)
overruled on other grounds by Countrywide Home Loans, Inc. v.
Thitchener, 124 Nev. 725, 730, 192 P.3d 243, 246 (2008) (“The
[district] court is responsible to determine, as a matter of law,
whether the plaintiff has offered substantial evidence of malice,
in fact, to support a punitive damage instruction”). The record is
devoid of any evidence showing that Gilbert acted with malicious
intent.

App.8a

The district court did not abuse its discretion by
awarding Gilbert attorney fees
The LaFriedas argue that the district court abused
its discretion in awarding Gilbert attorney fees and
that the award constituted an impermissible penalty.
We disagree.
This court will not disturb a district court’s award
of attorney fees “absent a manifest abuse of discre­
tion.” Frantz v. Johnson, 116 Nev. 455, 471, 999 P.2d
351, 361 (2000). A manifest abuse of discretion occurs
when the district court’s decision is arbitrary or capri­
cious. Yamaha Motor Co., U.S.A. v. Arnoult, 114 Nev.
233, 251, 955 P.2d 661, 672 (1998).
NRCP 68(f) authorizes an award of attorney fees
to a party making an offer of judgment if the offeree
rejects an offer and fails to obtain a more favorable
judgment. “[W]hile the purpose of NRCP 68 is to encour­
age settlement, it is not to force plaintiffs unfairly to
forego legitimate claims.” Beattie v. Thomas, 99 Nev.
579, 588, 668 P.3d 268, 274 (1983). Thus, before award­
ing attorney fees, the district court must evaluate:
(l) whether the plaintiffs claim was brought
in good faith; (2) whether the defendants’ offer
of judgment was reasonable and in good faith
in both its time and amount; (3) whether the
plaintiffs decision to reject the offer and pro­
ceed to trial was grossly unreasonable or in
bad faith; and (4) whether the fees sought
by the offeror are reasonable and justified in
amount.
Beattie, 99 Nev. at 588-89, 668 P.3d at 274. “None of
these factors are outcome determinative, however, and
thus, each should [b]e given appropriate consideration.”

App.9a
Frazier v. Drake, 131 Nev. 632, 642, 357 P.3d 365,
372 (Ct. App. 2016) (citing Yamaha Motor Co., U.S.A.
v. Arnoult, 114 Nev. 233, 252 n.16, 966 P.2d 661, 673
n.16 (1998)).
Here, the district court made explicit findings
and concluded that a limited award of attorney fees
was warranted after carefully considering and balancing
the Beattie factors. Although the district court found
that the LaFriedas’ claims were brought in good faith,
and that the LaFriedas’ decision to reject the offer of
judgment and proceed to trial was not grossly unreason­
able or in bad faith, the district court awarded Gilbert
a limited amount of attorney fees because Gilbert’s offer
of judgment was reasonable in both timing and amount.
In addition, the district court found that Gilbert’s
attorney fees were necessary and reasonably incurred
given the complexity and time the case took. Upon
review of the record, this court has found no abuse of
discretion in the district court’s award of attorney fees
to Gilbert. Based on the foregoing, we
ORDER the judgment of the district court
AFFIRMED. 4
/s/ Gibbons
Chief Justice
Is/ Pickering
Justice
/s/ Hardesty
Justice
4 The Honorable Justices Abbi Silver and Elissa F. Cadish did
not participate in the decision of this matter.

App.lOa

Is/ Parraguirre
Justice
I si Stiglich
Justice

App.lla

ORDER GRANTING
COSTS AND ATTORNEY FEES
(NOVEMBER 11, 2017)
IN THE SECOND JUDICIAL DISTRICT COURT
OF THE STATE OF NEVADA IN AND FOR
THE COUNTY OF WASHOE

JAMES R. LAFRIEDA and ELLEN A. LAFRIEDA,
Plaintiffs,
v.
NANCY A. GILBERT,
Defendant.
Case No. CV13-00291
Dept. No. 15
Before: David A. HARDY, District Court Judge.
Before this Court is Nancy Gilbert’s Memorandum
of Costs, Mr. and Ms. LaFrieda’s Motion to Retax Costs,
and Ms. Gilbert’s Motion for Attorney’s Fees. The
discretionary resolution of these motions is influenced
by the duration and complexity of underlying disputes,
to include the pre-trial district court and appellate
court proceedings, the jury’s verdict, and post-trial
adjustments ordered by this Court.

App.l2a

A.

Costs

Ms. Gilbert requests costs pursuant to NRS 18.
020(3). The LaFriedas argue there is no documenta­
tion showing Ms. Gilbert was billed, or paid her bills.
They also argue the bills do not meet Nevada’s standard
for awarding costs. 1
The Nevada Supreme Court clarified that an
expense is incurred when Ms. Gilbert or her insurer
is legally obligated to pay even if paid by a third
party. Whether Ms. Gilbert actually paid her bills or
was billed is irrelevant. Logan v. Abe, 131 Nev.___,
___, 350 P.3d 1139, 1142 (2015). Thus, the LaFriedas’
first argument must be rejected.
The prevailing party is entitled to an award of
reasonable costs where damages were sought in excess
of $2,500. NRS 18.020(3). Schwartz v. Estate of Greenspun, 110 Nev. 1042, 881 P.2d 638, (1994); Bergmann
v. Boyce, 109 Nev. 670, 856 P.2d 560 (1993). The pre­
vailing party recovers all costs under NRS 18.020 “as
a matter of right.” Id.; AJbios v. Horizon Commu­
nities, Inc., 122 Nev. 409, 431, 132 P.3d 1022, 1036
(2006). The prevailing party must provide sufficient
documentation to show the costs were reasonable,
necessary, and actually incurred. Cadle Co. v. Woods
& Erickson, LLP, 131 Nev. 345 P.3d 1049, 1054
(2015). Once documentation is provided, this Court
will determine whether the costs meet this standard.
Vill. Builders 96, L.P. v. U.S. Labs., Inc., 121 Nev. 261,

1 This Court finds the parties’ shifting arguments interesting
and ironic, as they each made opposite arguments before this
Court entered its Order Granting Judgment as a Matter ofLaw
and the LaFriedas were the presumptive prevailing parties.

App.l3a

278, 112 P.3d 1082, 1093 (2005). Awardable costs are
listed in NRS 18.005.
TRAVEL: NRS 18.005(15) allows for “reasonable
costs for travel and lodging.” Ms. Gilbert requests
$698.34 for Mr. Brown’s travel to Spokane, Washington:
a round-trip plane ticket, rental car, and hotel room.
Mr. Brown travelled to Spokane to depose Mr. Siino,
the expert witness at the heart of the underlying
case. This Court finds this cost is reasonable, necessary,
and actually incurred. Accordingly, this Court awards
$698.34.
Arbitration/Mediation Fees: While fees for
mediation are not enumerated in the list of permissible
costs, NRS 18.005(17) allows for “any other reasonable
and necessary expenses.” Ms. Gilbert requests an award
of $4,191.69 for mediation fees. This Court ordered the
parties to mediation by its January 18, 2017, Order
for Mandatory Mediation. The fees were necessarily
incurred and the amount requested is reasonable.
This Court awards $4,191.69 for mediation under
NRS 18.005(17).
COPIES: NRS 18.005(12) provides costs of photo­
copies may be recovered. Ms. Gilbert requests $760.20
in costs for her photocopies in the memorandum of costs
and $852.56 in her supplement to memorandum of
costs. Neither the memorandum nor the supplement
state the purpose for each copy. See Cadle, 131 Nev.
, 112 P.3d at 1054-55 (there must be some evi­
at
dence of the “reasonableness or necessity of each
photocopy charge” (emphasis added)). However, with
respect to copies, this Court must balance the burden
on counsel to chart the specific purpose of every copy—
particularly in this voluminous action. This Court
observes all attorneys in this action to be profession-

App.l4a

al and honest beyond reproach. This Court accepts
Ms. Gilbert’s explanation that the copies were incurred
and necessary. This Court has no direct or indirect
information to the contrary. Copy costs are awarded
in the amount of $1,612.76.
DELIVERY: Postage and process server fees are
recoverable costs under NRS 18.005(7) & (14). The
LaFriedas withdrew their argument regarding this
charge and this Court awards $334.55 to Ms. Gilbert
for delivery costs. WDCR 13(3).
COURT Reporting: Deposition transcripts and
“compensation for the official reporter” are recoverable
costs under NRS 18.005(2) & (8). Trial transcripts
may be charged under NRS 18.005(8) because the cost
of a trial transcript is part of the court reporter’s
compensation. Ms. Gilbert requests $7,106.74 for all
deposition and trial transcripts. The trial transcripts
compose $730.69 of the total court reporting costs.
All court reporting costs are well-documented and
actually incurred. The costs are reasonable and were
necessary. The full amount of $7,106.74 shall be
awarded under NRS 18.005(2) & (8).
WITNESS Fees: NRS 18.005(4) allows recovery of
witness fees. Ms. Gilbert requests $196. The LaFriedas
oppose awarding witness fees for witnesses not actu­
ally called, but Nevada law provides: “[C]ailing the
witnesses at trial [is] not a prerequisite to an award
of witness fees as costs.” Bergmann v. Boyce, 109
Nev. 670, 680, 856 P.2d 560, 566 (1993). This Court
finds the internal “check request” documentation suf­
ficient to show the fees were actually incurred and
recoverable. Further, such fees are reasonable and
necessary. Accordingly, this Court awards $196 for
witness fees.

App.l5a

EXPERT Fees; Expert fees are recoverable costs,
but an expert witnesses’ fee cannot exceed $1,500 per
witness, “unless the court allows a larger fee after
determining that the circumstances surrounding the
expert’s testimony were of such necessity as to require
the larger fee.” NRS 18.005(5). Ms. Gilbert seeks to
recover $63,664.33 in expert witness fees for her two
expert witnesses, Paul Matteoni and Scott VanSchaardenburg. Mr. Matteoni charged $52,840.71.
Mr. Matteoni testified as an expert on two subjects:
l) the standard of care for legal services, and 2)
construction defects. Despite Mr. Matteoni’s testimony,
the jury concluded that Ms. Gilbert breached the
standard of care when she published her letter to Mr.
Robison but did not breach the standard of care
regarding Summit Engineering. To further complicate
the issue, independent of Mr. Matteoni’s participation
the jury was unable to arrive at an evidence-based
damages award. Thus, Ms. Gilbert prevailed even
though her expert provided little assistance in the
outcome. Given the relative importance of Mr. Matte­
oni’s opinion, Mr. Matteoni’s qualifications, and the
extent and nature of the expert work performed, this
Court awards $20,000 as an expert witness fee for Mr.
Matteoni. See Frazier v. Drake, 131 Nev. ___, ___,
357 P.3d 365 (2015).
Ms. Gilbert seeks $9,216.62 for Mr. VanSchaardenburg’s fee. This Court notes he testified for only
thirty minutes over a thirteen-day trial. Mr. VanSchaardenburg’s influence is unknown, but within the
context of trial, his participation was nominal. Con­
sequently, this Court adheres to NRS 18.005(5) and
awards the statutory maximum of $1,500 for Mr.
VanSchaardenburg’s expert testimony.

App.l6a

Accordingly, this Court awards a total of $21,500
for expert fees.
FILING Fees: Filing fees (otherwise referred to as
clerk’s fees) are recoverable under NRS 18.005(1).
Juror fees are recoverable under NRS 18.005(3). Ms.
Gilbert requests $5,295.01 for these fees, as follows:
Motion for Summary Judgment:
Supreme Court e-Filing
Jury fees
Lunch Voucher (jury)
Dinner Voucher (jury)
Jury List

$200.00
$250.00
$4,480.00
$165.62
$143.89
$55.50

The $200 is a filing fee for the December 13, 2016,
motion for summary judgment, which was denied. See
Order after Oral Argument (Jan. 27, 2017). This Court
will not award costs for the unsuccessful motion.
Further, this Court does not have authority to grant
costs incurred on appeal. See NRS 18.060. Finally, the
jury list does not fall within NRS 18.005(3) because it
does not constitute jurors’ fees or expenses. Accord­
ingly, this Court awards $4,789.51.
MISCELLANEOUS: Ms. Gilbert requests reimburse­
ment of $40 for purchasing an audio CD of her appel­
late oral arguments. This cost is unsupported and
unnecessary; it is therefore denied.
B.

Attorney’s Fees
1. Procedural Background

The LaFriedas sued Ms. Gilbert on three claims.
The jury found against them on two of the claims,
and this Court was required to vacate the verdict in
favor of the LaFrieda’s remaining claim for the reasons

App.l7a

stated in its July 27, 2017, Order Granting Judgment
as a Ma tier ofLa w.
2. Legal Standard
Attorney fees are not allowed to a prevailing party
absent a contract, statute, or rule. See Smith v.
Crown Financial Services, 111 Nev. 277, 890 P.2d
769 (1995) (analyzing the American and English rules
regarding attorney’s fees and NRS 18.010). A party
who rejects a timely NRCP 68 offer accepts a shifted
risk of fees. See Muije v. A North Las Vegas Cab Co.,
106 Nev. 664, 667, 799 P.2d 559, 561 (1990) (noting
the purpose of the offer of judgment “is to promote
settlement of suits by rewarding defendants who make
reasonable offers and penalizing plaintiffs who refuse
to accept them. Early settlement saves time and money
for the court system, the parties, and the taxpayers.”).
Nonetheless, an award of fees under NRCP 68 is dis­
cretionary.
Ms. Gilbert timely offered to allow a $100,000
judgment against her. The LaFriedas rejected Ms.
Gilbert’s offer. While the jury awarded more than
$100,000 against Ms. Gilbert, this Court vacated the
award and Ms. Gilbert is the prevailing trial party.
This Court must consider:
1.

Whether the claims at issue were brought
in good faith

2.

Whether the offer was reasonable in timing
and amount

3.

Whether the decision to reject the offer and
proceed to trial was grossly unreasonable or
in bad faith; and

App.l8a

4.

Whether the fees sought by the offeror are
reasonable and justified in amount.

Beattie v. Thomas, 99 Nev. 579, 588-89, 668 P.2d 268,
274 (1983). In determining the fourth factor, this
Court must also examine the attorney’s quality, work
performance and amount, and the result. See Barney
v. Mt. Rose Heating & Air Conditioning, 124 Nev.
821, 192 P.3d 730 (2008) (citing Brunzell v. Golden
Gate National Bank, 85 Nev. 345, 455 P.2d 31 (1969)).
After analyzing the Beattie and Brunzell factors, this
Court may award all or some of the fees requested.
Beattie, 99 Nev. at 589, 668 P.2d at 274.
Ms. Gilbert concedes the LaFriedas initially
brought their claims in good faith. Shortly before
trial, this Court indicated the type of evidence that
would be necessary to sustain the claim for a reduced
settlement with BCI. Ms. Gilbert asserts the absence
of causation evidence rendered the LaFriedas’ con­
tinuing prosecution of the claim in bad faith. This
Court disagrees. The jury’s verdict that Ms. Gilbert’s
conduct fell below the standard of care remains extant.
The LaFriedas inability to prove causation damages
does not vitiate the good-faith basis of this action.
This factor weighs in favor of the LaFriedas.
Ms. Gilbert’s offer of judgment was reasonable in
both its timing and amount. Ms. Gilbert’s offer was
conveyed after a “robust” or “exhaustive” (as described
by the parties) motion for summary judgment, which
was served after the parties briefed their motions in
limine, and after they filed pre-trial disclosures. This
Court heard oral arguments on January 25, 2017,
denied Ms. Gilbert’s motion for summary judgment,
and decided a number pre-trial matters. The LaFriedas
had until February 3, 2017, before the offer was deemed

App.l9a

rejected and automatically withdrawn by the offeror.
NRCP 68(e). Ms. Gilbert’s $100,000 offer was reason­
ably calculated to tempt settlement and force the
LaFriedas to consider the costs of trial versus the
benefit of a guaranteed outcome; it appropriately met
the balance between the risks of trial with the
certainty of a settlement. Because the offer arrived
after discovery closed and the motion for summary
judgment was filed, the LaFriedas were in a good
position to evaluate the strengths and risks of their
case at that time. This factor weighs in favor of Ms.
Gilbert.
Third, Ms. Gilbert again concedes the LaFriedas’
decision to reject her offer and proceed to trial was
not done in bad faith. However, she argues the La­
Friedas’ decision was grossly unreasonable because
their underlying construction defect experts were
unwilling to attribute liability to BEC and the La­
Friedas were on notice of the evidence necessary to
show BCI would have paid more to settle the claim
but for her letter. The LaFriedas argue it is a misrep­
resentation that their own experts in the underlying
case were unwilling to attribute liability to BEC. The
LaFriedas point out how Mr. John O’Donnell, PE,
testified that BEC fell below the standard of care and
the LaFriedas never retained their other expert for
this matter.
This Court finds the LaFriedas’ decision to reject
the offer of judgment and proceed to trial was not
grossly unreasonable or in bad faith. Before the offer
of judgment expired, this Court denied Ms. Gilbert’s
motion for summary judgment, and presumably, the
LaFriedas felt confident beginning trial. The jury
verdict reveals that Ms. Gilbert did breach the standard

App.20a

of care and validates the LaFriedas’ decision to try
their case. The right of trial is constitutional. Some
litigants simply need to present their dispute to a
jury. This dispute, in its longitudinal and substantive
entirety, led to a decision to go to trial that was not
grossly unreasonable. Additionally, the LaFriedas had
incurred expenses (and asserted damages) well in
excess of $100,000. This factor inures in favor of the
LaFriedas.
This Court has considered each of the Brunzell
factors and concludes the attorneys are of the highest
ability, training, experience, and professional standing.
Brunzell v. Golden Gate Nat. Bank, 85 Nev. 345, 349,
455 P.2d 31, 33 (i960). This trial was extraordinarily
complex and voluminous because it implicated remote
constructional defects. All fees were necessarily and
reasonably incurred, except fees for the emergency
writ and corresponding motion to stay. This factor
weighs in favor of Ms. Gilbert.
The district court has broad discretion in awarding
attorney fees if all Beattie factors are considered in a
non-arbitrary manner. Yamaha Motor Co., U.S.A. v.
Arnoult, 114 Nev. 233, 252 n. 16, 955 P.2d 661, 673
n. 16 (1998). The Beattie test is a balancing test, not
a conjunctive one. Id. at 252 n. 16, 955 P.2d at 673 n.
16 (“no one factor under Beattie is determinative.”).
After carefully considering and balancing the Beattie
factors, this Court finds a limited award of attorney
fees is warranted. In the end, both parties are res­
ponsible for the facts leading to trial and both parties
should bear some of the expenses of trial. Justice is
served by an award of attorney’s fees in the amount
of $50,000.

App.21a

C.

Conclusion

This Court awards a total of $40,429.59 for costs
and $50,000 for attorney’s fees. Ms. Gilbert shall submit
a succinct, proposed judgment incorporating these
amounts.
IT IS SO ORDERED.
/s/ David A. Hardy
District Court Judge

Dated: November 5, 2017

App.22a
ORDER GRANTING
JUDGMENT AS A MATTER OF LAW
(JULY 28, 2017)
IN THE SECOND JUDICIAL DISTRICT COURT
OF THE STATE OF NEVADA IN AND FOR
THE COUNTY OF WASHOE
JAMES R. LAFRIEDA and ELLEN A. LAFRIEDA,
Plaintiffs,
v.
NANCY A. GILBERT
Defendant.
Case No. CV13-00291
Dept. No. 15
Before: David A. HARDY, District Court Judge.
Before this Court is Ms. Gilbert’s renewed motion
for judgment as a matter of law pursuant to NRCP
50(b). Also before this Court are various papers related
to trial costs. This Court has reviewed all moving
papers and now orders as follows:
General Statement of Relevant Facts
Ms. Gilbert represented the LaFriedas and other
homeowners in a construction defect action involving
several defendants. One or more of the homeowners

App.23a

engaged Mr. Kent Robison to assist with a few discrete
issues. Ms. Gilbert wrote a letter to Mr. Robison in
which she disclosed information about her experts
and whether they could assert liability against Black
Eagle Consulting (BEC) and Building Concepts, Inc.
(BCI). Mr. Robison disclosed Ms. Gilbert’s letter, which
led to summary judgment in favor of BEC. However,
the presiding judge of the construction defect action
denied summary judgment in favor of BCI because,
in part, Ms. Gilbert’s expert was able to assert BCI
fault and sign a certificate of merit. 1 Though the
applicability, scope, and accuracy of the letter was in
controversy, and a subsequent cure of its contents
was in controversy, the letter itself would have been
admissible in the underlying construction defect trial.
BCI zealously defended the defect allegations
through its attorney, Nathan Aman. The LaFriedas and
other homeowners settled their claims against all
other defendants before attending a judicial settlement
conference with BCI. The consolidated plaintiffs initially
demanded $900,000 but settled for $200,000.2 The
LaFriedas’ proportionate share of the settlement pro­
ceeds was $33,000. The LaFriedas then sued Ms.

1 Pursuant to NRS 40.6884, the attorney representing construc­
tion defect plaintiffs must file an affidavit that the action has a
reasonable basis in law and fact, and support the affidavit with
a report from an expert.
2 The LaFriedas calculated their total damages related to their
home (attenuated from BCI’s slab design but including litiga­
tion expenses settlement with other defendants) to be $601,000.
Nonetheless, they consented to the opening aggregate demand
of $900,000, of which their proportionate share would have been
$150,000.

App.24a

Gilbert and Mr. Robison for legal malpractice. This
Court dismissed Mr. Robison from the action.
The LaFriedas proceeded to trial against Ms.
Gilbert on three claims: l) BEC was liable for defective
construction, and but for Ms. Gilbert’s letter and the
order of summary judgment, they would have recovered
from BEC, 2) the amount they received in settlement
from BCI was reduced because of Ms. Gilbert’s letter,
and 3) Ms. Gilbert failed to name Summit Engineering
properly, which led to Summit’s exclusion from the
case. (The claim regarding Summit was not related
to Ms. Gilbert’s letter.)
The jury concluded Ms. Gilbert fell below the
standard of care when she disclosed confidential
information about the experts’ opinions to Mr. Robison,
but BEC had no underlying liability for defects. The
jury concluded Ms. Gilbert had no liability for Summit’s
exclusion from the case. With respect to the BCI
reduced settlement claim, the LaFriedas asked the
jury to award $150,000 to them, which represented
their proportionate share of the $900,000 initial settle­
ment demand. The jury concluded that Ms. Gilbert’s
letter caused a $265,000 reduction in the settlement
the LaFriedas reached with BCI.
Procedural Propriety of Motion
Ms. Gilbert moved for judgment as a matter of
law after the LaFriedas closed their case-in-chief.3
3 Ms. Gilbert argued through counsel:
There’s been no evidence or testimony about anything
other than the plaintiffs’ own perspective; that is,
there’s no evidence of the other side of that equation
that we’ve argued from the beginning of this case.

App.25a

NRCP 50(a)(2) provides that such a motion may be
made “at the close of the evidence offered by the non­
moving party or at the close of the case.” (Emphasis
added.) The trial motion was timely and procedurally
proper. This Court denied the motion and the matter
was submitted to the jury.
NRCP 50(b) provides that if the court does not
grant the motion “made at the close of all the evidence,”
it may re-visit the legal questions through a postThe decision to come to a settlement agreement is
necessarily a two-sided equation, Your Honor.
And the plaintiffs had every opportunity to call not only
Nathan Aman, hut Patrick Clark. And they simplyYour Honor even indicated that, if they called Nathan
Aman, you would be likely to pierce that privilege.
They still chose not to provide any evidence from the
other side of that necessary two-sided equation.
[...]
Mr. La Frieda today stated that he believes the letter
affected his settlement. But he was never even asked
to attempt to quantify the amount that that letter led
to a reduced settlement; therefore, that amount is
entirely speculative.
In fact, Mr. Beasley testified, when I cross-examined
him, that trying to estimate the amount of settlement,
were it not for Nancy Gilbert’s letter, would be pure
speculation.
Based on the fact that we have only the plaintiffs’
side of that equation, and we have the plaintiffs’ own
attorney involved in that settlement saying that,
“Trying to estimate that amount would be pure spe­
culation,” and we’re missing the entire other side of
the equation, we believe that the evidence is lacking
as a matter of law.
Mtn. Directed Verdicts Tr. 8:6-17; 9:4-17 (Feb. 17, 2017).

App.26a

trial renewed motion for judgment as a matter of law.
The LaFriedas concede that Ms. Gilbert’s NRCP 50(a)
motion was timely because it was made at the end
of their case-in-chief, yet they contend it cannot be
renewed post-trial because it was not made “at the
close of all the evidence.” The LaFriedas essentially
argue that while Ms. Gilbert could make a motion after
their case-in-chief ended, she must also make the
identical motion at the conclusion of her own defense
case-in-chief (or the LaFrieda’s rebuttal case, if any).
Otherwise, the motion cannot be renewed after the
trial ends. The LaFriedas offer no rationale for why
Ms. Gilbert must make the identical motion at two
different stages of trial—they merely assert a narrow
interpretation of the rule without policy or purpose
explanation.
The purpose of the antecedent trial motion is to
l) alert the nonmoving party there is insufficiency of
evidence, thus allowing the nonmoving party to cure
defects in proof, Mathieu v. Gopher News Co., 273
F.3d 769, 776 (8th Cir. 2001), 2) preserve appellate
review of the moving party’s opposition to the sufficiency
of evidence, DeMarines v. KLMRoyal Dutch Airlines,
580 F.2d 1193, 1195 n.4 (3d Cir. 1978), and 3) prevent
the moving party from gambling on the jury’s verdict
“and then later, when displeased with the verdict,
challenge the sufficiency of the evidence to support
it.” Price v. Sinnott, 85 Nev. 600, 607, 460 P.2d 837,
841 (1969).
These purposes are vindicated by the procedural
posture of this case. The LaFriedas were on notice
well before trial of Ms. Gilbert’s position that l) there
must be some evidence from BCI’s perspective showing
actual causation between Ms. Gilbert’s letter and the

App.27a

alleged reduction in settlement value, and 2) there
must be some evidence of damages from BCI’s per­
spective showing the amount or mechanism of value
reduction. These issues were an integral part of the
pre-trial moving papers, and the LaFriedas represented
to this Court they would present such evidence through
witnesses they identified by name and subsequently
subpoenaed for trial. The LaFriedas were further
noticed during trial by way of Ms. Gilbert’s motion
for judgment as a matter of law. Thus, to the extent
there is an internal rule inconsistency between disal­
lowing a renewed motion when the antecedent motion
was proper, this Court is required to construe the
rule in a manner that will secure the just determina­
tion of every action. NRCP 1.
The LaFriedas’ narrow interpretation is not sup­
ported by Nevada decisional authority. To the contra­
ry, their interpretation was tacitly rejected by Nelson
v. Heer, 123 Nev. 217; 163 P.3d 420 (2007). There, like
here, the defense motion for judgment as a matter of
law was made at the end of the plaintiffs case-in­
chief. There is no reference to a second motion at the
“close of all the evidence.” The Nevada Supreme Court
substantively analyzed the renewed motion under
NRCP 50(b). The Court even referenced the drafter’s
note explaining the required antecedent motion. Nel­
son, 123 Nev. at 223 n.9, 163 P.3d at 424, n.9. As set
forth in Ms. Gilbert’s reply, the Drafter’s Note to the
2004 Amendment to the Nevada Rules of Civil Proce­
dure explains the persuasive authority of federal law
and how Ms. Gilbert’s renewed motion is proper.
Federal courts and commentators also support Ms.
Gilbert’s position. See generally 9B Federal Practice
& Procedure (Wright & Miller) § 2537 (3d ed.); JOSEPH

App.28a

Glannon, Et Al., Civil Procedure: A Casebook 1075,
1st ed. 2011. This Court concludes the subtle difference
between the federal and Nevada rules creates a
distinction without a difference. This Court will not
countenance a “trap for the unwary,” which is dis­
favored in Nevada law. Fritz Hansen A/S v. Dist. Ct.,
116 Nev. 650, 6 P.3d 982 (2000) (citing Orange Theatre
Corp. v. Rayherstz Amusement Corp., 139 F.2d 871 (3rd
Cir. 1944)) (quoting Paul A. Bible, Special Appearancest] Trap for the Unwary, 43 Inter Alia 16 (1978)).
For these reasons, the renewed motion is properly
before this Court.
Standards for Considering
a Motion as a Matter of Law
This Court may grant a motion for judgment as
a matter of law when the nonmoving party “has failed
to prove a sufficient issue for the jury” such that the
claim cannot be maintained under controlling law.
NRCP 50(a)(1); Nelson, 123 Nev. at 222, 163 P.3d at
424. This Court must view evidence and draw infer­
ences most favorably to the LaFriedas. Id. To defeat
the motion, the LaFriedas must point to sufficient
evidence upon which the jury relied. Id. The credib­
ility of witnesses and weight of evidence are not
before this Court. Broussard v. Hill, 100 Nev. 325,
327, 682 P.2d 1376, 1377 (1984). A judgment as a
matter of law may only be granted when “the evidence
is so overwhelming for one party that any other verdict
would be contrary to the law.” Bliss v. DePrang, 81
Nev. 599, 602, 407 P.2d 726, 727-28 (1965). The options
before this Court are to allow the verdict to stand,
order a new trial, or direct entry of judgment as a
matter of law. NRCP 50(b)(1).

App.29a

Controlling Law and Analysis
Ms. Gilbert contends the verdict against her is
contrary to the controlling laws of causation and
damages. In particular, she contends there is no evi­
dence of actual “but for” causation and the damages
award is impermissibly speculative. The LaFriedas
respond by arguing there is circumstantial evidence
of both causation and damages sufficient to sustain
the verdict.
Controlling Law of Causation. Causation is
an essential element of legal malpractice. See Mainor
v. Nault, 120 Nev. 750, 101 P.3d 308 (2004). Accord­
ingly, the jury was instructed that the LaFriedas must
prove “actual cause,” meaning that “but for the negli­
gent acts of the defendant, the plaintiffs’ damages
would not have occurred.” Instruction 20. There is no
challenge to the instruction given.
As with other negligence cases, legal malpractice
plaintiffs must prove their lawyer’s negligence caused
cognizable harm. Rogers v. Zanetti, 518 S.W.3d 394
(Tex. 2017). The plaintiff must supply, through evi­
dence, “a causal link between the attorney’s alleged
negligence and the client’s damages.” Id. at 404. A
lawyer can be negligent and yet cause no harm, and
if the breach of duty does not cause harm, no valid
claim for legal malpractice exists. Id. at 400 (citing
Alexander v. Turtur & Assocs., Inc., 146 S.W.3d 113
(Tex. 2004)). Whether a negligent lawyer’s conduct is
the cause of claimed injury “requires an examination
of the hypothetical alternative: What should have
happened if the lawyer had not been negligent?” Id.
at 404. Expert testimony regarding causation can be
helpful, and in some cases necessary. Id. at 405. See

App.30a

also Richard H.W. Maloy, Proximate Cause: The Final
Defense in Legal Malpractice Cases, 36 U. Mem. L.
Rev. 655 (2006).
A voluntary settlement of the underlying dispute
does not preclude a legal malpractice action. In this
instance, “the focus becomes whether ‘settlement of
the action was effectively compelled by the mistakes
of counsel’ but “[m]ere speculation about a loss resulting
from an attorney’s [alleged] poor performance is
insufficient.” Chamberlain, D’Amanda, Oppenheimer
& Greenfield, LLP v. Wilson, 136 A.D.3d 1326, 1328
(N.Y. App. Div. 2016).
In White v. Rolley, 484 S.E.2d 83, 85 (Ga. Ct. App.
1997), the plaintiff alleged “his settlement was greatly
reduced” by his attorney’s negligence. The Georgia
Court of Appeals noted “[t] he concept of proximate
cause acts as ‘a limitation on what would otherwise
be the unlimited liability of a negligent tortfeasor for
all the immediate and the eventual consequences of
his negligence.’” Id. at 86. Accordingly, intervening
acts may render the negligence “too remote to Satisfy
the proximate cause requirement for a legal malprac­
tice claim.” Id.
Griswold v. Kilpatrick, 27 P.3d 246 (Wash. Ct.
App. 2001), is instructive. There, the legal malpractice
plaintiff alleged her attorney’s negligence in delaying
the date of a settlement conference caused a reduction
in the settlement value of her underlying personal
injury action. (Plaintiffs husband had an intervening
heart attack before the settlement conference occurred,
which plaintiff alleged affected the value of the
settlement.) The plaintiff failed to provide evidence
the delay caused an effect upon the settlement value.
Instead, she simply “assume[d] the result” that the

App.31a

defendant would have paid more if the settlement
conference had occurred earlier. She even described
her proof as “common sense.” The Washington Court
of Appeals noted that many variables influence
settlement and the plaintiff offered no declarations or
other evidence from the defendant indicating the effect
of the delay on its settlement valuation. The plaintiff
also failed to examine the exhaustion of settlement
authority at the successful mediation. In short, the
plaintiff “had no information indicating that the
[defendant] was willing to settle the case for a larger
amount” at an earlier date. Thus, the court rejected
the plaintiffs “conclusory opinion” that she suffered a
reduction in settlement value as a result of her attor­
ney’s negligence.
Controlling Law of Damages. The jury was
instructed that “[n]either sympathy nor speculation
is a proper basis for determining damages,” though
“absolute certainty as to the damages is not required.”
Instruction 32. There is no challenge to the instruction
given.
Courts and advocates often focus on the concept
that damages need not be proven with “mathematical
certainty.” This concept is also described by the
words “exactitude” and “speculative.” Mort Wallin v.
Commercial Cabinet, 105 Nev. 855, 857, 784 P.2d 954,
955 (1989); Clark Cty. Sch. Dist. v. Richardson Const.,
123 Nev. 382, 397, 168 P.3d 87, 97 (2007)). However,
the law of damages has greater depth than the first
focus suggests. The party seeking damages has the
burden of proving both the fact of damages and the
amount of damages. Kelly Broadcasting v. Sovereign
Broadcast, 96 Nev. 188, 193-194, 606 P.2d 1089, 1093
(1980); Alper v. Stillings, 80 Nev. 84, 86-87, 389 P.2d

App.32a

239, 240 (1964). “The rule against the recovery of uncer­
tain damages generally is directed against uncertainty
as to the existence or cause of damage rather than as
to measure or extent.” Brown v. Lindsay, 68 Nev. 196,
205-06, 228 P.2d 262, 266 (1951). Thus, the cause of
damages must be proven beyond speculation while
the amount of damages may be proven with some
level of uncertainty.
The distinction between cause of damage and
measure of damage is a subtle but critical feature of
the issue before this Court. One permits evidentiary,
uncertainty whereas the other does not. A few examples
wherein damages were speculative in cause, as opposed
to uncertainty in measure and extent, are instructive.
These decisions generally hold that evidence showing
“the fact of diminution in value alone will not, without
more, establish a basis for an award of substantial
damages.” Mort Wallin, 105 Nev. at 857, 784 P.2d at
955. Instead the claim for diminution in value must
be proven by “qualified expert testimony” or “other
equally competent evidence.” Id. Then, “[o]nce the fact
of damage has been established, some uncertainty in
amount is allowed.” Bader v. Cerri, 96 Nev. 352, 609
P.2d 314 (1980).
In Mort Wallin, the plaintiff asserted construction
defects at its business and sought damages for business
revenue diminution. The trial court concluded there
was no evidentiary basis for the diminution, to which
the Nevada Supreme Court agreed: “The fact that the
property suffered at least some diminution in value
seems obvious. However, the record reveals no evidence
directed to an evaluation of the diminished value of
the premises as a result of [defendant’s] actual per­
formance compared with the anticipated value of the

1

App.33a

premises if performance had been rendered as required
by the contract between the parties.” Id. at 856-57,
784 P.2d at 955.
The Nevada Supreme Court relied upon Mort
Wallin when it decided Gramanz v. T-Shirts and
Souvenirs, Inc., Ill Nev. 478, 894 P.2d 342 (1995).
There, a shareholder sued the other shareholder for
breach of an agreement not to compete, claiming the
competition led to diminution in business value. The
plaintiff s accountant was able to identify diminished
sales but acknowledged his inability to specify the
actual harm caused by competition. Instead, he com­
pared sales revenue from the year before the share­
holders’ dispute with revenue from the year after the
defendant shareholder began competing. The court
reversed, noting it had previous^ held that “evidence
going only to the fact of diminution in value alone
will not, [without ‘an evidentiary basis for determining
a reasonably accurate amount of damages’] , establish
a basis for an award of substantial damages.” Id. at
484-85, 894 P.2d at 346 (alteration in original).
In Brown v. Lindsay, the defendant negligently
deprived the plaintiff of the use of business equipment.
Plaintiff asserted damages from a consequential dimin­
ution in its business revenue. The court held that
even though recovery of uncertain damages may bar
some claims, it is not directed towards the existence or
cause of damages. 68 Nev. at 205-06, 228 P.2d at 266.
Similarly, in Knier v. Azores Constr. Co., 78 Nev. 20,
368 P.2d 673 (1962), the plaintiff alleged diminished
business revenue through defendant’s construction
delays. After citing Brown, the court held “the claimed
existence of damage, that is, the loss of prospective
profits . . . [of] a new business enterprise, is too uricer-

App.34a

tain and speculative to form a basis for recovery.” Id.
at 24, 368 P.2d at 675.
The jury concluded that Ms. Gilbert breached
the standard of care when she disclosed confidential
information about her experts. However, this finding
alone does not warrant damages. The LaFriedas
were also required to present evidence that “but for”
Ms. Gilbert’s letter, BCI would have paid more money
to settle the LaFriedas’ claim. Mr. Beasley repre­
sented the LaFriedas and other homeowners at the
settlement conference. He testified that Ms. Gilbert’s
letter and other litigation facts/risks affected the
LaFriedas’ (and other plaintiffs’) settlement position,
though he conceded that measuring the financial
effect was speculative.4 Thus, there was evidence for
the jury to find the LaFriedas accepted less money
than they would have because Ms. Gilbert’s letter
compromised their potential trial outcome.
But settlement is voluntary and bilateral. It re­
quires two-party consent. This Court expressed its
view before trial that evidentiary causation upon BCI
would be necessary. In other words, how did Ms.
Gilbert’s letter cause BCI to pay less than it otherwise
would? In response, the LaFriedas represented they
would be calling their attorney who participated in
the settlement conference (James Beasley) and the
BCI attorney who defended the construction defect
allegation and participated in the settlement conference
(Nathan Aman). Additionally, the LaFriedas subpoe­
naed the BCI principal, Mr. Patrick Clark, to provide
4 These other influences included the credibility of competing
experts, risks of fees and costs to the prevailing party, and a
$181,000 offset reflecting prior settlements.

App.35a

similar evidence. For unknown reasons, the LaFriedas
did not call Mr. Aman, Mr. Clark, or any other witness
with knowledge of BCI’s defense perspective, case valu­
ation, or settlement considerations.5
BCI was a participant in the injury asserted by
the LaFriedas, yet there is no evidence showing how
Ms. Gilbert’s letter caused BCI to reduce its settlement
offer or otherwise alter its litigation strategy or case
valuation. There is no evidence to answer the question:
what would the settlement with BCI have been without
Ms. Gilbert’s letter? Though BCI knew of the letter
when it unsuccessfully sought summary judgment,
there is no evidence that BCI considered the letter
eight months later during the settlement conference.
There was no evidence regarding other settlement
influences, such as insurer participation, BCI efficacy,
financial solvency, or ability to pay. See Whiteaker v.
State, 382 N.W.2d 112 (Iowa 1986) (noting the collectability of an underlying damages award is relevant
when alleging that legal malpractice prevented the
receipt of underlying damages). There was no evidence
that BCI would have paid $265,000 (or any addition­
al amount) “but for” Ms. Gilbert’s negligent disclosure.
Id.

5 Having read all file materials, including the defensive actions
of BCI in the underlying case, and observing all trial evidence,
this Court considers that Mr. Aman, Mr. Clark, and others
would have testified BCI had little or no liability exposure and
Ms. Gilbert’s letter had little or no effect upon the settlement
negotiations. An expert’s initial opinion, potentially cured by a
written report, deposition testimony, and court order, could be
de minimus when compared to the central allegation of design
defect liability against BCI.

App.36a

The LaFriedas asked the jury to “assume the
result” that because BCI knew of Ms. Gilbert’s letter,
the letter must have influenced the settlement amount.
There is no direct or circumstantial evidence in this
regard. The cause of damage is therefore speculative
and insufficient to meet the requirements of law. For
these reasons, the motion for judgment as a matter of
law must be granted. This Court directs entry of
judgment in favor of Ms. Gilbert regarding the BCI
claim. The LaFriedas’ motion for costs must be denied
as the LaFriedas did not prevail at trial.
/s/ David A. Hardy
District Court Judge

Dated: July 28, 2017

App.37a
SPECIAL JURY VERDICT FORM
(FEBRUARY 23, 2017)
IN THE SECOND JUDICIAL DISTRICT COURT
OF THE STATE OF NEVADA IN AND FOR
THE COUNTY OF WASHOE
JAMES R. LAFRIEDA and ELLEN A. LAFRIEDA,
Plaintiffs,
v.
NANCY GILBERT, an Individual;
and DOES I through X,
Defendants.
Case No. CV13-00291
Dept. No. 15
We, the jury in the above-entitled action, find
the following special verdict on the questions submitted
to us regarding Plaintiffs James R. LaFrieda and Ellen
A. LaFrieda, as and for their claims against Defendant
Nancy Gilbert:
(A) Standard of Care
Question No. 1:
Do you find that Nancy Gilbert breached the
applicable standard of care with regard to her Feb­
ruary 15, 2011, letter to Kent Robison?

App.38a

• Answer: Yes
Please Proceed to Question no. 2.
Question No. 2:
Do you find that Nancy Gilbert breached the
applicable standard of care with regard to the
Second Amended Complaint against Summit
Engineering?
• Answer: No
If you answer both Question No. 1 and Question No.
2 “no” please stop, sign, and return this form.
If you answer only Question No. 1 “ves”. please pro­
ceed to sections (B) and (C)
If you answer only Question No. 2 “ves”. please pro­
ceed to section (D)
If you answer both Question No. 1 and Question No. .
2 “ves”. please proceed to sections (B). (C). and (D)
(B) Plaintiffs’ Underlying Claims Against
Black Eagle Consulting
Question No. 3:
If the answer to Question No. 1 is “yes”, do you
find the Plaintiffs’ would have succeeded on the
underlying claim against Black Eagle Consult­
ing?
• Answer: No
If you answer Question No. 3 “no”, do not answer
Question No. 4.
Please proceed to section (C).

App.39a

(C) Plaintiffs’ Underlying Claims Against
Building Concepts Incorporated
Question No. 5:
If the answer to Question No. 1 is “yes”, do you
find that the Plaintiffs accepted a reduced settle­
ment with Building Concepts, Inc. specifically
caused by Nancy Gilbert’s letter to Kent Robison?
• Answer: Yes
If you answer Question No. 5 “no”, do not answer
Question No. 6. but refer to the italicized instructions
following Question No. 6.
Question No. 6:
If the answer to Question No. 5 is “yes”, what
amount of damages, if any, do you find for the
Plaintiffs’ reduced settlement with Building
Concepts, Inc.?
• Answer: $265,000
If you answered Question No, 2 “yes”, please proceed
to section (D).
(D) Plaintiffs’ Underlying Claims Against
Summit Engineering
Question No. 7:
If the answer to Question No. 2 is “yes”, what
amount, if any, do you find the Plaintiffs’ paid
for Nancy Gilbert to oppose Summit’s Motion to
Dismiss?
• Answer: $___ _

App.40a
Please sign and return.
Dated this 22 day of February, 2017.
/s/ [Signature not Legible!

FOREPERSON

App.41a

ORDER AFTER ORAL ARGUMENTS
(JANUARY 27, 2017)
IN THE SECOND JUDICIAL DISTRICT COURT
OF THE STATE OF NEVADA IN AND FOR
THE COUNTY OF WASHOE

JAMES R. LAFRIEDA and ELLEN A. LAFRIEDA,
Plaintiffs,
v.
NANCY A. GILBERT, an Individual;
ROBISON, BELAUSTEGUI, SHARP, & LOW,
a Nevada Professional Corporation;
KENT R. ROBISON, an Individual;
MICHAEL A. BURKE, an Individual; and
DOES I through X,
Defendants.
Case No. CV13-00291
Dept. No. 15
Before: David A. HARDY, District Court Judge.
Before this Court are several pre-trial matters.
This Court heard arguments and made approximately
20 oral pronouncements on January 25, 2017. This
order memorializes some of the more substantive oral
pronouncements.

App.42a

Summary Judgment
1. The parties agree Ms, Gilbert owed a duty to
the LaFriedas. The question of whether Ms. Gilbert
breached that duty is a material fact in controversy.
The questions of causation and damages are material
facts in controversy. The essential questions presented
are whether Ms. Gilbert’s disclosure violated her pro­
fessional duty to the LaFriedas, whether the disclo­
sure caused BEC to file and prevail in summary judg­
ment, and whether BEC would have otherwise been res­
ponsible for some portion of the LaFriedas’ defective
home. Summary judgment is denied.
2. The LaFriedas made judicial admissions before
the Nevada Supreme Court that Ms. Gilbert did not
volunteer any information about their claims and Ms.
Gilbert’s letter had nothing to do with their claims
against BEC. The LaFriedas’ various statements to
the Nevada Supreme Court constitute judicial admis­
sions. Reyburn Lawn v Plater Development Co., 127
Nev. 331, 255 P.3d 268 (2011). This Court will not
use these admissions to grant summary adjudication.
The admissions are similar to discovery admissions.
Depending on trial testimony, they may constitute
prior inconsistent statements and be admissible for
impeachment. This Court will entertain arguments
about the propriety of instructing the jury on judicial
admissions.
3. This Court will allow expert John G. O’Donnell
to provide testimony for purposes of causation. To
rule otherwise would prevent the LaFriedas from
attempting to prove an essential element of their
claim against BEC. Without expert testimony that BEC
was responsible for soil engineer design defects there

App.43a

can be no showing of causation and Ms. Gilbert may
benefit from her alleged errors. Ms. Gilbert may crossexamine Mr. O’Donnell and make arguments relating to
her efforts to obtain a Certificate of Merit at the time
of her opposition to summary judgment in the under­
lying consolidated cases. Further, this Court will
allow Mr. Larry Johnson, the principal of BEC, to
provide testimony (competent evidence based upon
foundation) relating to the allegations against BEC.
Ms. Gilbert shall make Mr. Johnson available for a
deposition at the LaFriedas’ request.
4. The consolidated plaintiffs, including the La­
Friedas, obtained a Certificate of Merit against BCI
after Ms. Gilbert’s February 15, 2011, letter. The
content of Ms. Gilbert’s letter was vigorously litigated
and considered by the trial judge when she denied
BCI’s request for summary judgment. Thus, the letter
was subsequently cured and had no dispositive legal
meaning. The consolidated plaintiffs, including the
LaFriedas, settled with BCI for the aggregate sum of
$200,000, of which the LaFriedas received approxi­
mately $35,000. The LaFriedas now assert the settle­
ment value was diminished by Ms. Gilbert’s letter, even
though it was subsequently cured and not a legal
cause for dismissal or summary judgment. This Court
is unwilling to allow a full trial against BCI on its
merits. As to BCI, the content of Ms. Gilbert’s letter
was cured by subsequent Affidavit of Merit, vigorous
litigation in which the judge ruled in favor of the
LaFriedas, concerns by the LaFriedas’ attorney that
BCI had two defense experts who could absolve BCI
of any liability, voluntary settlement involving all
plaintiffs, including the LaFriedas, and the LaFriedas’
acquiescence to the motion for good faith settlement.

App.44a

All of this occurred after Ms. Gilbert withdrew and
the LaFriedas were represented by successor counsel.
However, the LaFriedas allege the amount of the settle­
ment was diminished by Ms. Gilbert’s letter because
the trial judge had ruled it was admissible and it would
be “devastating” if the jury knew of its existence. The
question of the letter’s effect upon settlement, if any,
is material and disputed.
5. The two attorneys who negotiated the settle­
ment will testify at this trial. The jury will consider
the LaFriedas’ testimony, whether corroborated by the
attorneys or not. The jury will decide the extent to
which the letter changed the value of the settlement.
This Court is not persuaded that a 1993 decision from
the Illinois Court of Appeals requires a full trial on
the underlying case within this trial for legal mal­
practice. See McCarthy v. Pederson & Houpt, 621
N.E.2d 97 (Ill. Ct. App. 1993). The analysis of the
McCarthy decision focuses on the general question of
whether a plaintiff can sue a former attorney after
settling an underlying action. Mr. Sperber will not
testify as to BCI’s underlying liability, which has
already been established.
6. The LaFriedas acknowledge their claim about
Summit Engineering is limited to legal expenses they
paid to Ms. Gilbert to defend a successful motion to
dismiss.
7. This Court will make the decision to instruct
the jury on punitive damages after all trial evidence
is presented. See NRS 42.005(3); Countrywide Home
Loans, Inc. v. Thitchener, 124 Nev. 725, 739-40, 192
P.3d 243, 252-53 (2008).

App.45a

Motions in Limine
1. This Court exercises caution before granting
any motion in limine, as limine rulings weigh against
this Court’s capacity to consider evidence during
trial. Trial is where this Court is “better situated ... to
assess the value and utility of evidence.” Wilkins v.
K-Mart, Corp., 487 Fed. Supp. 2d 1216, 1218 (D. Kan.
2007); Sperberg v. Goodyear Tire and Rubber Co., 519
Fed. 2d 708, 712 (6th Cir. 1975) (“A better practice is
to deal with questions of admissibility of evidence as
they arise.”) This Court’s limine orders are pro tern
as they should not bind “the trial judge [who] may
always change [his] mind during the course of trial.”
Ohler v. United States, 529 U.S. 753, 758 n.3 (2000)
(citing Luce v. United States, 469 U.S. 38, 41-42,
(1984) (noting in limine rulings are subject to change,
especially when the trial unfolds in an unanticipated
way)). Likewise, the denial of a motion in limine
merely means “without the context of a trial, the
Court is unable to determine whether the evidence in
question should be excluded.” Indiana Ins. Co. v.
Gen. Elec. Co., 326 F. Supp. 2d 844, 846 (N.D. Ohio
2004). No court can fully anticipate all evidentiary
issues at trial, but limine rulings are guideposts for
the admissibility of specific evidence.
2. Ms. Gilbert may refer to Kent Robison and his
law firm during her testimony to explain what she did
and why she did it. She may express he! disagree­
ment with Mr. Robison and his law firm. However,
Ms. Gilbert may not suggest that Mr. Robison or his
law firm fell below a professional ethical standard or
are responsible for the LaFriedas’ damages, if any.

App.46a

3. Mr. Aman and Mr. Beasley may testify about
their professional actions in the underlying matter.
They may explain why they took certain actions.
However, this Court will not allow them to be conduits
for cumulative or damaging hearsay. In particular,
Mr. Aman may provide competent testimony about his
perceptions of the strengths and weaknesses of the
claims against BEC and BCI, whether his discovery
practices were abusive or not, and the effects his con­
versations with Mr. Siino’s counsel had on his case
analysis and actions.
4. Mr. Hebert may testify about his professional
participation in this action. Provided, however, he is
not named as a retained expert and will not provide
independent expert testimony about rules of profes­
sional conduct.
5. Ms. Gilbert may admit evidence relating to
the aggregate value of the settlement the LaFriedas
received in the underlying action. This Court concludes
NRS 17.245 is not controlling. Normally, the fact and
amount of a co-tortfeasor’s settlement is not admissible.
Here, the LaFriedas will introduce the concept of
settlement when they claim the $35,000 settlement
with BCI was inadequate. It would be unfair to Ms.
Gilbert if the jury was informed (either by express
statement or tacit failure to state) that the totality of
the LaFriedas’ settlement was limited to $35,000—
particularly because the LaFriedas are claiming almost
$1 million in damages for all the defects in their
home. Additionally, there are no other tortfeasors in
this case, as is contemplated by the statute. This
Court does not believe mitigation of damages applies
in the classical sense and Ms. Gilbert may not inquire

App.47a

into how the LaFriedas spent the settlement proceeds
they received.
6. Ms. Gilbert’s motion to exclude efforts to seek
double recovery is denied. The LaFriedas’ trial theme
is that the value of settlement damages they received
were influenced by Ms. Gilbert’s professional negli­
gence. The release of claims does not bar their suit
against a former attorney. The LaFriedas may present
their full computation of damages, subject to Ms.
Gilbert’s cross-examination and countervailing evi­
dence, if any. This Court will consider offset issues, if
at all, in post-trial proceedings.
Other Pre-Trial Matters
1. Ms. Gilbert’s request to depose Mr. Gunderson
is denied. The LaFriedas’ request for the jury to view
the premises is denied. The request for a continuance
is denied.
2. The parties will appear for a final pre-trial
conference on Thursday, February 2, 2017, at 9:00
a.m. They shall file a brief hearing statement no
later than noon on February 1, 2017.
IT IS SO ORDERED.
/s/ David A. Hardy
District Court Judge

Dated: January 27, 2017

App.48a

ORDER OF THE SUPREME COURT OF NEVADA
DENYING PETITION FOR REHEARING
(MAY 14, 2019)
IN THE SUPREME COURT OF THE
STATE OF NEVADA

JAMES R. LAFRIEDA; and ELLEN A. LAFRIEDA,
Appellants,
v.
NANCY A GILBERT, an Individual,
Respondent,
No. 73888

JAMES R. LAFRIEDA; and ELLEN A. LAFRIEDA,
Appellants,
v.
NANCY A GILBERT, an Individual,
Respondent
No. 74565

App.49a

JAMES R. LAFRIEDA and ELLEN A. LAFRIEDA,
Appellants,
v.
NANCY A GILBERT, an Individual,
Respondent.
No. 74942
Before: GIBBONS, C.J., PICKERING, J„
PARRAGUIRRE, J., STIGLICH, J. CADISH, J.,
SILVER, J., and HARDESTY, J.
Rehearing denied. NRAP 40(c).
It is so ORDERED
/si Gibbons
Chief Justice
/s/ Pickering
Justice
/s/ Parraguirre
Justice
/s/ Stiglich
Justice
/s/ Cadish
Justice
/s/ Silver
Justice

App.50a

HARDESTY, J., dissenting:
I have concerns with the 50(b) interpretation
argument and would order an answer on that issue
only. Accordingly, I respectfully dissent.

/s/ Hardesty
Justice

App.51a

ORDER OF THE
SUPREME COURT OF NEVADA AFFIRMING
THE JUDGMENT OF THE DISTRICT COURT
(JULY 30, 2014)
IN THE SUPREME COURT OF
THE STATE OF NEVADA

JAMES R. LA FRIEDA and ELLEN A. LA FRIEDA,
Appellants,
v.
BLACK EAGLE CONSULTING, INC.,
Respondent.
Supreme Court No. 62284
This is an appeal from district court orders grant­
ing summary judgment and awarding attorney fees,
costs, and interest in consolidated construction defect
actions. Second Judicial District Court, Washoe County;
Connie J. Steinheimer, Judge.
Appellants James and Ellen LaFrieda purchased
a new home. Respondent Black Eagle Consulting
(BEC) was involved in the design and construction of
the LaFriedas’ concrete slab-on-grade floor. The
LaFriedas’ floor developed cracks and, in 2008, the
LaFriedas filed a complaint alleging professional
negligence and negligent misrepresentation claims
and naming BEC as a defendant. In 2011, BEC moved

App.52a

for summary judgment, based on a letter written by
the LaFriedas’ counsel at the time stating that the
retained experts found no basis for concluding that
BEC was liable. The LaFriedas moved to exclude the
letter and moved for additional time for discovery
pursuant to NRCP 56(f). The district court denied
these motions and granted BEC’s motions for summary
judgment, attorney fees, costs, and prejudgment inter­
est. The LaFriedas appealed.
This court reviews summary judgments de novo.
Wood v. Safeway, Inc., 121 Nev. 724, 729, 121 P.3d
1026, 1029 (2005). Summary judgment is appropriate
if the pleadings and other evidence, when viewed in
the light most favorable to the nonmoving party,
indicate that there is no genuine issue as to any
material fact and the moving party is entitled to
judgment as a matter of law. Id.; NRCP 56(c).
A complaint against a design professional in a
construction defect case must be filed with an attor­
ney’s affidavit stating that the attorney has reviewed
the facts of the case, discussed the case with an
expert, and concluded that the action has a reasonable
basis in fact and law. NRS 40.6884(1). In addition, an
expert’s report indicating that there is a reasonable
basis for the action must also accompany the complaint.
NRS 40.6884(3).
Here, the LaFriedas’ original attorney filed an
attorney’s affidavit and an expert’s report with the
LaFriedas’ complaint in 2008. The LaFriedas’ case was
later consolidated with other similar cases and different
counsel represented the consolidated plaintiffs. In
2011, counsel for the consolidated plaintiffs (previous

App.53a

counsel)! moved to withdraw. Previous counsel sent
a letter to another attorney who was considering
representing the consolidated plaintiffs for the purpose
of opposing the motion to withdraw (withdrawal
counsel). In the letter, previous counsel admitted that
the experts found no reasonable basis for the action
against BEC and made various assertions regarding
her management of the consolidated plaintiffs’ case.
Withdrawal counsel submitted this letter to the
district court in support of the opposition to the
motion to withdraw. Based on the letter, BEC moved
for summary judgment. In the opposition to BEC’s
motion for summary judgment, previous counsel made
further admissions that the experts could not conclude
that BEC was liable. The expert’s report never men­
tioned BEC, and previous counsel’s admissions indicate
that the report was not intended to refer to BEC.
Based on previous counsel’s admissions, the district
court concluded that the attorney’s affidavit and
expert’s report filed with the LaFriedas’ complaint were
faulty and could not be relied upon to maintain the
action. See NRS 40.6884(1), (3). Therefore, the district
court granted BEC’s motion for summary judgment,
and the LaFriedas appealed.
First, the LaFriedas argue that previous counsel’s
letter was protected by the attorney-client privilege.
We assume, without deciding, that the letter referenced
privileged communications between previous counsel
and the experts, and that the letter was itself a
privileged communication between previous counsel
and withdrawal counsel. See NRS 49.095. Although
1 The LaFriedas are represented by a different attorney on
appeal.

App.54a

the client is the holder of the attorney-client privilege,
see NRS 49.105; Fink v. Oshins, 118 Nev. 428, 435,
49 P.3d 640, 645 (2002), an attorney has authority to
make admissions of fact that bind the client. Gottwals
v. Bencher, 60 Nev. 35, 52; 98 P.2d 481, 484 (1940).
This authority necessarily includes the authority to
disclose some privileged communications, unless the
attorney acts in bad faith. Sprader v. Mueller, 121
N.W.2d 176, 180 (Minn. 1963); see also Edward J.
Imwinkelried, The New Wigmore: A Treatise on
Evidence; Evidentiary Privileges § 6.12.3 (2d ed. 2010)
(“Absent contrary instructions from the client, the
attorney has extensive implied authority for disclosures
related to litigation.”). There is no evidence that
withdrawal counsel disclosed the letter in bad faith,
and the record indicates that withdrawal counsel
provided the letter in order to demonstrate that the
consolidated plaintiffs needed more time to retain
new counsel. Accordingly, we conclude that withdrawal
counsel acted within the scope of his authority by
disclosing previous counsel’s letter, and the LaFriedas
are bound by this waiver of any attorney-client
privilege that may have protected the letter. See
Sprader, 121 N.W.2d at 180. The district court thus
properly refused to exclude the letter.
Next, the LaFriedas argue that the district court
misconstrued the letter by adopting BEC’s interpret­
ation of the letter. Before the district court, previous
counsel described the letter as her candid views on
the case against BEC and admitted that she learned
shortly before writing the letter that the experts
could not conclude that BEC was liable, but never
argued that the letter was not intended to apply to
the LaFriedas. Because the LaFriedas make this

App.55a

argument for the first time on appeal, it is waived.
See Old Aztec Mine, Inc. v. Brown, 97 Nev. 49, 52,
623 P.2d 981, 983 (1981) (“A point not urged in the
trial court, unless it goes to the jurisdiction of that
court, is deemed to have been waived and will not be
considered on appeal.”).
The LaFriedas further argue that if the district
court did not err by considering the letter, summary
judgment was nevertheless improper. However, BEC
showed an absence of evidence of its liability using
the letter and counsel’s additional admissions. There­
fore, the LaFriedas bore the burden of coming forward
with evidence to show that a genuine issue of material
fact existed as to BEC’s liability. See Cuzze v. Univ.
& Cmty. Coll. Sys, ofNev., 123 Nev. 598, 602-03, 172
P.3d 131, 134 (2007). However, the LaFriedas did not
produce any evidence contradicting counsel’s admis­
sions. Accordingly, the district court did not err by
granting BEC’s motion for summary judgment.
The LaFriedas also argue that the district court
abused its discretion by denying their request for
additional discovery under NRCP 56(f). Although
discovery was stayed pending mediation, the record
reflects that the LaFriedas received substantial
information regarding BEC’s work on their home,
including admissions that BEC performed on-call
inspection services at the LaFriedas’ home. While the
information that BEC provided may have been incom­
plete or confusing, the LaFriedas failed to show that
additional discovery would enable their experts to
conclude that BEC was liable, and thus they failed to
show that additional discovery would create a genuine
issue of material fact. Accordingly, the district court
did not abuse its discretion by denying the LaFriedas’

App.56a

request for additional discovery. See Francis v. Wynn
, 262 P.3d 705, 714
Las Vegas, LLC, 127 Nev.
(2011).
Alternatively, the LaFriedas argue that the
district court erred by granting summary judgment
on their negligent misrepresentation claim because
this claim was not subject to the requirements of
NRS 40.6884. NRS 40.6884 applies to all claims that
arise “as the result of a constructional defect, except
a claim for personal injury or wrongful death.” NRS
40.635(1). We have previously interpreted similar
statutory language in the context of nonresidential
construction defect statutes to include negligent mis­
representation claims. See In re CityCenter Constr. &
, 310 P.3d 574,
Lien Master Litig., 129 Nev.,
578-79 (2013) (interpreting NRS 11.2565(l)(b)).
Accordingly, we construe NRS 40.635(1) broadly and
conclude that the LaFriedas’ negligent misrepresent­
ation claim against BEC was subject to NRS 40.6884
because this claim arose out of BEC’s role in the
construction and later inspection of the LaFriedas’
home. Therefore, because the LaFriedas’ experts found
no basis for BEC’s liability on anjr claim and the
LaFriedas did not present any evidence showing a
genuine issue of material fact relative to their negligent
misrepresentation claim, the district court did not err
by granting summary judgment as to all of the
LaFriedas’ claims2
2 The LaFriedas argue that the district court abused its discretion
by awarding BEC attorney fees and costs because summary
judgment was improper. Given our conclusion that summary
judgment was proper, we reject this argument. The LaFriedas
also challenge the district court’s calculation of prejudgment
interest. The LaFriedas raised this argument for the first time

App.57a

Accordingly, we ORDER the judgment of the
district court AFFIRMED.

Is/ Pickering
Justice
/s/ Parraguirre
Justice
/s/ Saitta
Justice
cc.:
Hon. Connie J. Steinheimer, District Judge
Margaret M. Crowley, Settlement Judge
Law Office of James Shields Beasley
Fahrendorf, Viloria, Oliphant & Oster, LLP
Washoe District Court Clerk

in a motion for reconsideration before the district court, but this
motion was never submitted for decision. Thus, we decline to
address this argument. See Arnold v. Kip, 123 Nev. 410, 417,
168 P.3d 1050, 1054 (2007) (stating that this court may consider
arguments raised for the first time in a motion for reconsideration
before the district court when the motion and an order
considering its merits are properly in the record on appeal).
Finally, while we affirm the district court’s judgment, we note
that the LaFriedas’ remedy, if any, is against previous counsel
rather than BEC.

App.58a
JURY INSTRUCTIONS
(FEBRUARY 23, 2017)
IN THE SECOND JUDICIAL DISTRICT COURT
OF THE STATE OF NEVADA IN AND FOR
THE COUNTY OF WASHOE
JAMES R. LAFRIEDA and ELLEN A. LAFRIEDA,
Plaintiffs,
v.
NANCY GILBERT, an Individual;
and DOES I through X,
Defendants.
Case No. CV13-00291
Dept. No. 15
Before: David A. HARDY, District Judge.

\

Instruction No. 1

LADIES AND GENTLEMAN OF THE JURY: It is
my duty as judge to instruct you in the law that applies
to this case. It is your duty as jurors to follow these
instructions and to apply the rules of law to the facts
as you find them from the evidence.
You must not be concerned with the wisdom of any
rule of law stated in these instructions. Regardless of
any opinion you may have as to what the law ought

App.59a

to be, it would be a violation of your oath to base a
verdict upon any other view of the law than that given
in the instructions of the court.
Instruction No. 2
If in these instructions, any rule, direction or idea
is repeated or stated in different ways, no emphasis
thereon is intended by me and none may be inferred
by you. For that reason, you are not to single out any
certain sentence or any individual point or instruc­
tion and ignore others, but you are to consider all the
instructions as a whole and regard each in the light
of all the others.
The order in which the instructions are given
has no significance as to their relative importance.
Instruction No. 3
If, during this trial, I have said or done anything
which has suggested to you that I am inclined to favor
the claims or position of any party, you will not be
influenced by any such suggestion.
I have not expressed, nor intended to express,
nor have I intended to intimate, any opinion as to
which witnesses are or are not worthy of belief, what
facts are or are not established, or what inference
should be drawn from the evidence. If any expression
of mine has seemed to indicate an opinion relating to
any of these matters, I instruct you to disregard it.
Instruction No. 4
Your purpose as jurors is to find and determine the
facts. Under our system of civil procedure, you are
the sole judge of the facts. You determine the facts

App.60a

from the testimony you hear and the other evidence,
including exhibits introduced in court. It is up to you
to determine the inferences which you feel may be
properly drawn from the evidence. It is especially
important that you perform your duty of determining
the facts diligently and conscientiously, for ordinarily,
there is no means of correcting an erroneous determi­
nation of facts by the jury.
The parties may have presented objections to some
of the testimony or other evidence. It is the duty of a
lawyer to object to evidence which he or she believes
may not properly be offered and you should not be
prejudiced in any way against the lawyer who makes
objections on behalf of the party he or she represents.
At times I may have sustained objections or directed
that you disregard certain testimony or exhibits. You
must not consider any evidence to which an objection
has been sustained or which I have instructed you to
disregard. Anything you may have seen or heard out­
side the courtroom is not. evidence and must also be
disregarded.
If counsel for the parties have stipulated to any
fact, you will regard that fact as being conclusively
proved as to the party or parties making the stipulation.
You must not speculate to be true any insinuations
suggested by a question asked the witness. A question
is not evidence and may be considered only as it
supplies meaning to the answer.
Instruction No. 5
In determining whether any proposition has been
proved, you should consider all of the evidence bearing

App.61a

on the question without regard to which party produced
it.
Instruction No. 6
There are two kinds of evidence, direct and cir­
cumstantial. Direct evidence is direct proof of a fact,
such as testimony of an eyewitness. Circumstantial evi­
dence is indirect evidence, that is, proof of a chain of
facts from which you could find that another fact
exists, even though it has not been proved directly.
You are entitled to consider both kinds of evidence.
The law permits you to give equal weight to both, but
it is for you to decide how much weight to give to any
evidence. It is for you to decide whether a fact has
been proved by circumstantial evidence.
Instruction No. 7
You must decide all questions of fact in this case
from the evidence received in this trial and not from
any other source. You must not make any independent
investigation of the facts or the law or consider or
discuss facts as to which there is no evidence. This
means, for example, that you must not on your own
visit the scene, conduct experiments, or consult refer­
ence works for additional information.
Instruction No. 8
Although you are to consider only the evidence
in the case in reaching a verdict, you must bring to
the consideration of the evidence your everyday common
sense and judgment as reasonable men and women.
Thus, you are not limited solely to what you see and
hear as the witnesses testify. You may draw reasonable
inferences from the evidence which you feel are justified

App.62a

in the light of common experience, keeping in mind
that such inferences should not be based on speculation
or guess.
Instruction No. 9
The testimony of one witness worthy of belief is
sufficient for the proof of any fact and would justify a
verdict in accordance with such testimony, even if a
number of witnesses have testified to the contrary. If,
from the whole case, considering the credibility of
witnesses, and after weighing the various factors of
evidence, you believe that there is a balance of prob­
ability pointing to the accuracy and honesty of the
one witness, you should accept his testimony.
Instruction No. 10
Discrepancies in a witness’s testimony or between
their testimony and that of others, if there were any
discrepancies, do not necessarily mean that the witness
should be discredited. Failure of recollection is a com­
mon experience, and innocent misrecollection is not
uncommon. It is a fact, also, that two persons wit­
nessing an incident or transaction often will see or
hear it differently. Whether a discrepancy pertains to
a fact of importance or only to a trivial detail should
be considered in weighing its significance.
Instruction No. 11
The credibility or “believability” of a witness should
be determined by his or her manner upon the stand,
his or her relationship to the parties, his or her fears,
motives, interests or feelings, his or her opportunity
to have observed the matter to which he or she testified,

App.63a

the reasonableness of his or her statements and the
strength or weakness of his or her recollections.
If you believe that a witness has lied about any
material fact in the case, you may disregard the entire
testimony of that witness or any portion of this
testimony which is not proved by other evidence.
Instruction No. 12
An attorney has a right to interview a witness
for the purpose of learning what testimony the witness
will give. The fact that the witness has talked to an
attorney and told him what he would testify to does
not, by itself, reflect adversely on the truth of the
testimony of the witness.
Instruction No. 13
Certain testimony has been read into evidence
from a deposition. A deposition is testimony taken
under oath before the trial and preserved in writing.
You are to consider that testimony as if it had been
given in court.
Instruction No. 14
A person who has special knowledge, skill, expe­
rience, training or education in a particular science,
profession or occupation may give his or her opinion
as an expert as to any matter in which he or she is
skilled. In determining the weight to be given such
opinion, you should consider the qualifications and
credibility of the expert and the reasons given for his
or her opinion. You are not bound by such opinion.
Give it the weight, if any, to which you deem it entitled.

App.64a

Instruction No. 15
In this case you have heard legal experts express
opinions as to the standard of professional learning,
skill and care required of the defendant.
To evaluate each such opinion, you should consider
the qualifications and credibility of the witness and
the reasons given for his or her opinion. Give each
opinion the weight to which you deem it entitled.
Instruction No. 16
Whenever in these instructions I state that the
burden, or the burden of proof, rests upon a certain
party to prove a certain allegation made by them, the
meaning of such an instruction is this: That unless
the truth of the allegation is proved by a preponderance
of the evidence, you shall find the same to be not
true.
The term “preponderance of the evidence” means
such evidence as, when weighed with that opposed to
it, has more convincing force, and from which it appears
that the greater probability of truth lies therein, the
preponderance, or weight of evidence, is not necessarily
with the greater number of witnesses.
Instruction No. 17
To prove a claim for legal malpractice, a plaintiff
must prove each of the following elements:
1)

the existence of an attorney-client relation­
ship;

2)

a duty owed to the client by the attorney;

3)

breach of that duty; and

App.65a

4)

the breach as proximate cause of the client’s
damages.
Instruction No. 18

The first two elements of the claim for legal mal­
practice have been established:
1)

the existence of an attorney-client relation­
ship among Plaintiffs and Defendant; and

2)

a duty owed to the Plaintiffs by the Defendant.
Instruction No. 19

A breach of the standard of care occurs when an
attorney during the representation of a client fails to
use such skill, prudence, and diligence as lawyers of
ordinary skill and capacity possess in exercising and
performing the task which they undertake.
Instruction No. 20
Causation consists of two components: actual cause
and proximate cause. To demonstrate actual cause,
the plaintiffs must prove that, but for the negligent
acts of the defendant, the plaintiffs’ damages would
not have occurred. The second component, proximate
cause, limits a defendant’s liability to foreseeable
consequences that have a reasonably close connection
with both the defendant’s conduct and the harm which
that conduct created. Proximate cause is any cause
which in the foreseeable and continuous sequence,
unbroken by any efficient intervening cause, produces
the damages complained of, and without which the
damages would not have occurred.

App.66a

Instruction No. 21
A legal cause of injury, damage, loss or harm is a
cause which is a substantial factor in bringing about
the injury, damage, loss or harm.

Instruction No. 22
It was permissible for Mr. Robison to disclose
Ms. Gilbert’s letter dated February 15, 2011. You are
asked to consider the propriety, or impropriety, of
Ms. Gilbert’s disclosure to Mr. Robison, and not Mr.
Robison’s subsequent disclosure to others.
Instruction No. 23
Attorney malpractice actions are based upon a
theory of negligence. As such, there is no subjective
good faith excuse for attorney negligence. A lawyer is
held to the standard of care which would be exercised
by a reasonably prudent attorney. The jury must
evaluate Ms. Gilbert’s conduct based on the information
she had at the time of the alleged act(s) of negligence.
The standard is an objective exercise of professional
judgment, not Ms. Gilbert’s subjective belief that her
acts were in good faith.
Instruction No. 24
An attorney is riot necessarily negligent just
because her efforts are unsuccessful or she makes an
error that was reasonable under the circumstances.
An attorney is negligent only if she was not as skill­
ful, knowledgeable, or careful as another reasonable
attorney would have been in similar circumstances.

App.67a

Instruction No. 25
Throughout this trial, you have heard reference to
the Nevada Rules of Professional Conduct. The Nevada
Rules of Professional Conduct are rules designed to
provide guidance to lawyers. The Rules are not designed
to be a basis for civil liability. The Rules relevant to
this case read as follows:
1.

A lawyer owes a duty of competence to their
client. This means a lawyer must provide
competent representation to a client, which
requires legal knowledge, skill, thoroughness,
and preparation reasonably necessary for
the representation.

2.

A lawyer owes a duty of confidentiality to
their client. A lawyer shall not reveal infor­
mation relating to representation of a client
unless the client gives informed consent, or
the disclosure is impliedly authorized in
order to carry out the representation.

3.

An attorney owes a duty of candor to the
court. This means an attorney shall not make
a false statement of fact or law to the court,
fail to correct a false statement of fact or
law previously made to the court, or offer to
the court evidence the lawyer knows to be
false. A lawyer may refuse to offer evidence
that the lawyer reasonably believes is false.
This duty of candor to the court is continuous
to the conclusion of a proceeding and applies
even if compliance requires disclosure of
client information that would otherwise be
protected as confidential.

App.68a

The Nevada Rules of Professional Conduct do not
establish a lawyer’s standard of care, which must be
established by expert testimony, or other evidence.
Nor should a violation of a Rule create any presumption
that a legal duty has been breached.
However, you may consider a violation of the Rules,
if any such violation has been established by the evi­
dence, as evidence of a breach of the standard of care.
Instruction No. 26
There was in force at the time of the occurrence
in question laws which read as follows:
NRS 40.6884 Attorney required to consult expert;
required affidavit of attorney; required report of
expert.
1. Except as otherwise provided in subsection 2,
in an action governed by NRS 40.600 to 40.695.
inclusive, that is commenced against a design profes­
sional or a person primarily engaged in the practice
of professional engineering, land surveying, architec­
ture or landscape architecture, including, without
limitation, an action for professional negligence, the
attorney for the complainant shall file an affidavit
with the court concurrently with the service of the
first pleading in the action stating that the attorney:
(a) Has reviewed the facts of the case;
(b) Has consulted with an expert;
(c)

Reasonably believes the expert who was
consulted is knowledgeable in the relevant
discipline involved in the action; and

App.69a

(d) Has concluded on the basis of the attorney’s
review and the consultation with the expert
that the action has a reasonable basis in
law and fact.
2. The attorney for the complainant may file the
affidavit required pursuant to subsection I at a later
time if the attorney could not consult with an expert and
prepare the affidavit before filing the action without
causing the action to be impaired or barred by the
statute of limitations or repose, or other limitations
prescribed by law. If the attorney must submit the
affidavit late, the attorney shall file an affidavit con­
currently with the service of the first pleading in the
action stating the attorney’s reason for failing to comply
with subsection 1 and the attorney shall consult with
an expert and file the affidavit required pursuant to
subsection 1 not later than 45 days after filing the
action.
3. In addition to the statement included in the
affidavit pursuant to subsection 1, a report must be
attached to the affidavit. Except as otherwise provided
in subsection 4, the report must be prepared by the
expert consulted by the attorney and include, without
limitation:
(a) The resume of the expert;
(b) A statement that the expert is experienced
in each discipline which is the subject of the
report;
(c)

A copy of each nonprivileged document
reviewed by the expert in preparing the
expert’s report, including, without limitation,
each record, report and related document
that the expert has determined is relevant

App.70a

to the allegations of negligent conduct that
are the basis for the action;

(d) The conclusions of the. expert and .the basis
for the conclusions; and
(e) A statement that the expert has concluded
that there is a reasonable basis for filing the
action.
4. In an action brought by a claimant in which
an affidavit is required to be filed pursuant to sub­
section 1:
(a) The report required pursuant to subsection
3 is not required to include the information
set forth in paragraphs (c) and (d) of sub­
section 3 if the claimant or the claimant’s
attorney files an affidavit, at the time that
the affidavit is filed pursuant to subsection
1, stating that the claimant or the claimant’s
attorney made reasonable efforts to obtain
the nonprivileged documents described in
paragraph (c) of subsection 3, but was unable
to obtain such documents before filing the
action;
(b) The claimant or the claimant’s attorney shall
amend the report required pursuant to sub­
section 3 to include any documents and infor­
mation required pursuant to paragraph (c)
or (d) of subsection 3 as soon as reasonably
practicable after receiving the document or
information; and
(c)

The court may dismiss the action if the claim­
ant and the claimant’s attorney fail to comply
with the requirements of paragraph (b).

App.71a

5. An expert consulted by an attorney to prepare
an affidavit pursuant to this section must not be a
party to the action.
6. As used in this section, “expert” means a person
who is licensed in a state to engage in the practice of
professional engineering, land surveying, architecture
or landscape architecture.
Instruction No. 27
NRS 40.6885 Effect of compliance with or failure
to comply with NRS 40.6884.
1. The court shall dismiss an action governed by
NRS 40.600 to 40,695. inclusive, that is commenced
against a design professional or a person primarily
engaged in the practice of professional engineering,
land surveying, architecture or landscape architecture,
including, without limitation, an action for professional
negligence, if the attorney for the complainant fails
to:
(a) File an affidavit required pursuant to NRS
40,6884:
(b) File a report required pursuant to subsec­
tion 3 of NRS 40.6884: or
(c)

Name the expert consulted in the affidavit
required pursuant to subsection 1 of NRS
40.6884.

2. The fact that an attorney for a complainant
has complied or failed to comply with the provisions
of NRS 40,6884 is admissible in the action.

App.72a

Instruction No. 28
A constructional defect means a defect in the
design, construction, manufacture, repair or landscap­
ing of a new residence, of an alteration of or addition
to an existing residence, or of an appurtenance and
includes, without limitation, the design, construction,
manufacture, repair or landscaping of a new resi­
dence, of an alteration of or addition to an existing
residence, or of an appurtenance:
1. Which is done in violation of law, including,
without limitation, in violation of local codes or ordi­
nances; or
2. Which proximately causes physical damage to
the residence, an appurtenance or the real property
to which the residence or appurtenance is affixed; or
3. Which is not completed in a good and work­
manlike manner in accordance with the generally
accepted standard of care in the industry for that
type of design, construction, manufacture, repair or
landscaping.
Instruction No. 29
In a claim to recover damages resulting from a
constructional defect, a contractor is liable for his
acts or Omissions or the acts or omissions of his
agents, employees or subcontractors. However, a con­
tractor is NOT liable for any damages caused by:
1. The acts or omissions of a person other than the
contractor or his agent, employee or subcontractor;
2. The failure of a person other than the contractor
or his agent, employee or subcontractor to take rea-

App.73a

sonable action to reduce the damages or maintain the
residence;
3. Normal wear, tear or deterioration;
4. Normal shrinkage, swelling, expansion or settle­
ment; or
5. Any constructional defect disclosed to an owner
before his purchase of the residence, if the disclosure
was provided in language that is understandable and
was written in underlined and boldfaced type with
capital letters.
Instruction No. 30
In the action commenced against Summit Engi­
neering, Ms. Gilbert was required to file an affidavit
with the court either (i) concurrently with the service
of the complaint or (ii) within 45 days of filing the
complaint if Ms. Gilbert could not consult with an
expert and prepare the affidavit before filing the action
without causing the action to be impaired or barred
by the statute of limitations.
Ms. Gilbert was required to state in the affidavit
that she:
(a) Had reviewed the facts of the case;
(b) Had consulted with an expert;
(c)

Reasonably believed the expert who was
consulted is knowledgeable in the relevant
discipline involved in the action; and

(d) Had concluded on the basis of the attorney’s
review and the consultation with the expert
that the action has a reasonable basis in
law and fact.

App.74a

You may consider other trial evidence to determine
if Ms. Gilbert complied with the statutory requirements.
Instruction No. 31
A design professional means a person who holds a
professional license or certificate of registration issued
by the state of Nevada in the fields of architecture,
residential design, interior design, landscape archi­
tecture, professional engineering, or land surveying.
Instruction No. 32
Whether damages have been proven by the evi­
dence is for you to determine. Neither sympathy nor
speculation is a proper basis for determining damages.
However, absolute certainty as to the damages is not
required. It is only required that plaintiff prove each
item of damage by a preponderance of the evidence.
Instruction No. 33
A plaintiff who alleges an inadequate settlement
in the underlying action must prove that, if not for
the malpractice, he would have received more money
in settlement or at trial. Thus, to recover damages
from Nancy Gilbert, the Plaintiffs must prove that
they would have obtained a better result if Nancy
Gilbert had acted as a reasonably careful attorney.
Instruction No. 34
The court has given you instructions embodying
various rules of law to help guide you to a just and
lawful verdict. Whether some of these instructions
will apply will depend upon what you find to be the
facts. The fact that I have instructed you on various
subjects in this case, including that of damages, must

1
j

App.75a

not be taken as indicating an opinion of the court as
to what you should find to be the facts or as to which
party is entitled to your verdict.
Instruction No. 35
It is your duty as jurors to consult with one
another and to deliberate with a view toward reaching
an agreement, if you can do so without violence to
your individual judgment. Each of you must decide
the case for yourself, but should do so only after
consideration of the case with your fellow jurors, and
you should not hesitate to change an opinion when
convinced that it is erroneous. However, you should
not be influenced to vote in any way on any question
submitted to you by the single fact that a majority of
the jurors, or any of them, favor such a decision. In
order words, you should not surrender your honest
convictions concerning the effect or weight of evidence
for the mere purpose of returning a verdict or solely
because of an opinion of the other jurors. Whatever
your verdict is, it must be the product of a careful
and impartial consideration of all the evidence in the
case under the rules of law as given you by the court.
Instruction No. 36
Now you will listen to the arguments of counsel
who will endeavor to aid you to reach a proper verdict
by refreshing in your minds the evidence and by
showing the application thereof to the law; but, what­
ever counsel may say, you will bear in mind that it is
your duty to be governed in your deliberation by the
evidence, as you understand it and remember it to be,
and by the law as given you in these instructions, and

App.76a

return a verdict- which, according to your reason and
candid judgment, is just and proper.
Instruction No. 37
When you retire to consider your verdict, you
must select one of your number to act as foreperson,
who will preside over your deliberation and will be
your spokesperson here in court.
During your deliberation, you will have all the
exhibits which were admitted into evidence, these
written instructions and forms of verdict which have
been prepared for your convenience.
In civil actions, three-fourths of the total number
of jurors may find and return a verdict. This is a civil
action. As soon as six or more of you have agreed
upon a verdict, you must have it signed and dated by
your foreperson, and then return with it to this room.
/si David A. Hardy
District Judge
Given 2-22-2017

App.77a

DOCKETING STATEMENT—CIVIL APPEALS
(SEPTEMBER 25, 2017)
IN THE SUPREME COURT OF
THE STATE OF NEVADA

JAMES R. LAFRIEDA and ELLEN A. LAFRIEDA,
Appellants,
v.
NANCY A GILBERT,
Respondent
No. 73888

Information
Appellants must complete this docketing statement
in compliance with NRAP 14(a). The purpose of the
docketing statement is to assist the Supreme Court
in screening jurisdiction, identifying issues on appeal,
assessing presumptive assignment to the Court of
Appeals under NRAP 17, scheduling cases for oral
argument and settlement conferences, classifying cases
for expedited treatment and assignment to the Court
of Appeals, and compiling statistical information.
Warning
This statement must be completed fully, accurately
and on time. NRAP 14(c).. The Supreme Court may

App.78a

impose sanctions on counsel or appellant if it appears
that the information provided is incomplete or inac­
curate. Id. Failure to fill out the statement complete­
ly or to file it in a timely manner constitutes grounds
for the imposition of sanctions, including a fine
and/or dismissal of the appeal.
A complete list of the documents that must be
attached appears as Question 27 on this docketing
statement. Failure to attach all required documents
will result in the delay of your appeal and may result
in the imposition of sanctions.
This court has noted that when attorneys do not
take seriously their obligations under NRAP 14 to com­
plete the docketing statement properly and conscien­
tiously, they waste the valuable judicial resources of
this court, making the imposition of sanctions appro­
priate. See KDI Sylvan Pools v. Workman, 107 Nev.
340, 344, 810 P.2d 1217, 1220 (1991). Please use tab
dividers to separate any attached documents.
1.
Judicial District Second
Department: 15
County: Washoe
Judge: David A. Hardy
District Ct. Case No.: CV-13-00291
2.

Attorney Filing this docketing statement:
• Attorney: Arthur A. Zorio
Telephone: 775-324-4100
Firm: Brownstein Hyatt Farber Schreck, LLP

App.79a

Address:

5371 Kietzke Ln.
Reno, Nevada 89511
Client(s):
James R. LaFrieda and Ellen A. LaFrieda
If this is a joint statement by multiple appellants,
add the names and addresses of other counsel and
the names of their clients on an additional sheet
accompanied by a certification that they concur in
the filing of this statement.
3.

Attorney(s) representing respondents(s):
• Attorney: Douglas R. Brown
Telephone: 775-786-6868
Firm: Lemons, Grundy & Eisenberg
Address
6005 Plumas Street,
Suite 300
Reno, Nevada 89509
Client(s): Nancy A. Gilbert
• Attorney: Robert L. Eisenberg
Telephone: 775-786-6868
Firm: Lemons, Grundy & Eisenberg
Address
6005 Plumas Street,
Suite 300
Reno, Nevada 89509
Client(s) Nancy A. Gilbert

App.80a

4.

Nature of disposition below (check all that apply):
• Judgment after jury verdict
• Other disposition (Specify): NRCP 50

5.

Does this appeal raise issues concerning any of
the following?
• No

6.

Pending and prior proceedings in this court.

List the case name and docket number of all
appeals or original proceedings presently or previous^
ending before this court which are related to this
appeal:
1. Original Proceeding:
Petition for Writ of Mandamus and/or Prohibition,
no longer_p ending
Case Name:
Nancy A. Gilbert v. Second Judicial
District Court and James R. LaFrieda
and Ellen A. LaFrieda
Docket Number: 72237
2. Appeal:
Appeal of underlying action, no longer pending.
Case Name:
James R. LaFrieda and Ellen A. LaFrieda v.
Black Eagle Consulting, Inc.
Docket Number: 62284
Appeals and Original Proceedings related to the
Underlying Action

App.81a

A.
Appeal: Appeal from adverse judgment, no longer
pending
Case Name: James R. LaFrieda and Ellen A. LaFrieda
vs. Black Eagle Consulting
Docket Number: 61477. This appeal was voluntarily
dismissed by plaintiffs as being premature.
B.
Original Proceeding: Petition for Writ of Mandate, no
longer pending
Case Name: James R. LaFrieda, Ellen A. LaFrieda; and
Richard Taylor vs. The Second. Judicial District
Court of the State of Nevada, in and for the
County of Washoe; and the Honorable Connie J.
Steinheimer, District Judge, Respondents, and
Building Concepts, Inc., a Nevada corporation,
Real Party in Interest,
Docket Number: 58390.
C.
Original Proceeding: Petition for Writ of Mandate, no
longer pending
Case Name: James R. LaFrieda and Ellen A. LaFrieda,
vs. Reynen & Bardis (Mt. Rose Estates), LLC, a
Nevada Limited Liability Company, Reynen &
Sardis Communities Nevada), Inc., Cedar Valley
Concrete Corp. of Nevada, a Nevada Corporation;
Black Eagle Consulting, Inc., a Nevada Corpora­
tion; Building Concepts, Inc., a Nevada Corpora­
tion, Respondents and Other Real Parties in
Interest,

App.82a

Docket Number: 52638.
D.
Original Proceeding: Petition for Writ of Mandate, no
longer pending
Case Name: Black Eagle Consulting, Inc., a Nevada
Corporation and Building Concepts, Inc, a Nev­
ada Corporation, vs. Hon. Connie Steinheimer,
Second Judicial District Court of Nevada, County
of Washoe, Respondent and Real Parties in
Interest,
Docket Number: 55292
7.

Pending and prior proceedings in other courts.

List the case name, number and court of all
pending and prior proceedings in other courts which
are related to this appeal (e.g;, bankruptcy, consolidated
or bifurcated proceedings) and their dates of disposition:
Reynen & Bardis Development, v. Stillwell
et al., Second Judicial District Court, State
of Nevada, Case No. CV07-01717, consolid­
ated with CV07-01730, CV08-00971, CV0800972, CV08-01141, CV08-02091. The Nevada
Supreme Court issued Remittitur on Decem­
ber 10, 2015 in Docket No. 62284 referred to
hereinabove at Section 6(2).
8.

Nature of the action.

Briefly describe the nature of the action and the
result below:

App.83a

Plaintiffs’ claims against Defendant Nancy A.
Gilbert were for damages and punitive damages due
to Defendant’s legal malpractice.
The jury determined that Ms. Gilbert fell below
the standard of care of attorneys when she issued
unauthorized, false and misleading statements about
the merits of the construction defect action, where
she stated, regarding the plaintiffs: “their retained
experts have not found liability on the part of Black
Eagle and are unwilling to prepare a Certificate of
Merit alleging such liability against Black Eagle
. . . Both retained experts, at this time, do not point to
Bluilding] CConcepts,] I[nc.] as to slab liability.”
Plaintiffs alleged that the malpractice caused
damages, inter alia, in the form of having to pay
attorney’s fees and costs to Black Eagle Consulting,
Inc. due to Ms. Gilbert’s statements being the basis
for the District Court’s grant of summary judgment
against Plaintiffs; additional attorney’s fees and the
inability to pursue a claim against Black Eagle
Consulting, Inc. in the underlying action.
Plaintiffs alleged that the malpractice caused dam­
ages, inter alia, in the form of reducing the value of
the claim against Building Concepts, Inc. and thereby
having to accept a reduced settlement as a result of
the detrimental evidence created by Ms. Gilbert.
Plaintiffs alleged that Ms. Gilbert’s failure to obtain
a certificate of merit as required bj^ NRS 40.6884
prior to filing a construction defect action against
Summit Engineering, Inc. caused Plaintiffs to incur
attorney’s fees and costs for Ms. Gilbert having
charged them to oppose a motion to dismiss due to
her failure to obtain the certificate of merit.

App.84a

The Jury returned a verdict in favor of Plaintiffs
for $265,000 regarding the reduced value of the
claims against Building Concepts, Inc,; however, after
having acknowledged at the end of Plaintiffs’ case in
chief “I am not granting a directed verdict on the BCI
reduced settlement. I believe there is evidence that a
jury can consider, and that the attorneys may argue,”
the Court on July 28, 2017 entered its Order Grant­
ing Judgment as a Matter of Law, entering judgment
against Plaintiffs and in favor of Defendant.
9.

Issues on appeal.

State concisely the principal issue(s) in this appeal
(attach separate sheets as necessary):
1.

Did the District Court err as a matter of law
when it granted Defendant’s Renewed Motion
for Judgment as a Matter of Law after the Jury’s
Verdict when Defendant failed to make a motion
for judgment as a matter of law at the close of all
evidence as required by the plain language of
NRCP 50(b)?
Yes.

2.

Did the District Court err as a matter of law
when it granted Defendant’s Renewed Motion
for Judgment as a Matter of Law ignoring the
evidence and all inferences most favorably to
Plaintiffs when it concluded there is no direct or
circumstantial evidence to support the jury’s
verdict?
,
Yes.

3.

Did the District Court err as a matter of law
when it failed to view the sufficiency of the evi-

App.85a

dence in light of the instructions given when it
decided Defendant’s Renewed Motion for Judg­
ment as a Matter of Law and after having ack­
nowledged at the end of Plaintiffs’ case in chief
“I am not granting a directed verdict on the BCI
reduced settlement. I believe there is evidence
that a jury can consider, and that the attorneys
may argue?”
Yes.
4.

Did the District Court err as a matter of law
when it granted Defendant’s motion for directed
verdict at the close of Plaintiffs case in chief
prohibiting Plaintiffs from seeking punitive
damages against Defendant?
Yes.

5.

Did the District Court abuse its discretion when
it prohibited Plaintiffs from offering evidence to
prove the element of proximate cause and
damages by the “case-within-a-case” method
regarding the liability and damages caused by
Building Concepts, Inc.?
Yes.

6.

Where the only facts presented to the Jury were
that Defendant violated NRS 40.6884 and caused
Plaintiffs to incur unnecessary attorney’s fees,
was the Jury’s Verdict finding Defendant did
not commit malpractice in filing a construction
defect complaint without obtaining a certificate
of merit supported by substantial evidence?
No.

App.86a

10. Pending proceedings in this court raising the
same or similar issues.
If you are aware of any proceedings presently
pending before this court which raises the same or
similar issues raised in this appeal, list the case
name and docket numbers and identify the same or
similar issue raised:
None
11. Constitutional issues.
If this appeal challenges the constitutionality of
a statute, and the state, any state agency, or any
officer or employee thereof is not a party to this
appeal, have you notified the clerk of this court and
the attorney general in accordance with NRAP 44
and NRS 30.130?
N/A
12. Other issues.
Does this appeal involve any of the following
issues?
No.
13. Assignment to the Court of Appeals or retention
in the Supreme Court.
Briefly set forth whether the matter is pre­
sumptively retained by the Supreme Court or assigned
to the Court of Appeals under NRAP 17, and cite the
subparagraph(s) of the Rule under which the matter
falls. If appellant believes that the Supreme Court
should retain the case despite its presumptive assign­
ment to the Court of Appeals, identify the specific

■1

App.87a

issue(s) or circumstance(s) that warrant retaining the
case, and include an explanation of their importance or
significance:
• NRAP 17(a)(1) provides that the Supreme Court
shall hear and decide proceedings invoking the
original jurisdiction of the Supreme court, except
as provided in NRAP 17(b).
• NRAP 17(b)(2) provides that the Court of Appeals
shall hear and decide matters including appeals
from a judgment of $250,000 or less.
• The Jury entered a verdict in favor of Plaintiffs
for $265,000. However, the district court did
not enter judgment for that amount. Rather, it
wrongfully-granted a motion for directed verdict
entering judgment in favor of Defendant and
against Plaintiff. Therefore no provision of NRAP
17(b) applies, and the matter is presumptively
retained by the Supreme Court.
14. Trial.
• If this action proceeded to trial, how many days
did the trial last? 13 days
• Was it a bench or jury trial? Jury
15. Judicial Disqualification.
Do you intend to file a motion to disqualify or
have a justice recuse him/herself from participation
in this appeal? If so, which Justice?

App.88a

Timeliness of Notice of Appeal
16, Date of entry of written judgment or order
appealed from
July 28. 2017
17. Date written notice of entry of judgment or order
was served
July 31. 2017
• Was service by: Mail/electronic/fax
18. If the time for filing the notice of appeal was
tolled by a post-judgment motion (NRCP 50(b),
52(b), or 59)
N/A
19. Date notice of appeal filed
August 29. 2017
20. Specify statute or rule governing the time limit
for filing the notice of appeal, e.g., NRAP 4(a) or
other
NRAP 4(a)
Substantive Appealability
21. Specify the statute or other authority granting
this court jurisdiction to review the judgment or
order appealed from:
(a) NRAP 3A(b)(l)
(b) Explain how each authority provides a basis
for appeal from the judgment or order:

1
App.89a

• NRAP 3A(b)(l). The Court’s Order Granting Defen­
dant’s Motion for Judgment as a Matter of Law
was the final judgment entered in the action.
22. List all parties involved in the action or consol­
idated actions in the district court:
(a) Parties:
•

James R. LaFrieda, Plaintiff/Appellant
Ellen A. LaFrieda, Plaintiff/Appellant

• Nancy A. Gilbert, Defendant/Respondent
(b) If all parties in the district court are not
parties to this appeal, explain in detail why
those parties are not involved in this appeal,
e.g., formally dismissed, not served, or other:
• N/A
23. Give a brief description (3 to 5 words) of each
party’s separate claims, counterclaims, cross­
claims, or third-party claims and the date of
formal disposition of each claim.
Plaintiffs’ claim was for legal malpractice. Plaintiffs
sought damages and punitive damages for Defendant’s
unauthorized, false and misleading statements made
to third parties, seriously affected the merits of the
underlying litigation, proximately causing Plaintiffs
to have summary judgment entered against them with
regard to one defendant, and diminished the value of
the merits of the claims against another defendant.
Additionally, Defendant’s failure to obtain a certificate
of merit prior to filing suit against a third defendant
caused Plaintiffs unnecessarily to incur attorney’s fees
and costs.

App.90a

Plaintiffs’ claim for damages was formally disposed
of on July 28, 2017 when the Court entered its Order
granting Defendant’s Motion for Judgment as a Matter
of Law.
Plaintiffs’ claim for punitive damages was disposed
of on February 21, 2017, when the Court granted
Defendant’s oral motion for judgment as a matter of
law during trial, at the close of Plaintiffs’ case in
chief.
24. Did the judgment or order appealed from adjud­
icate ALL the claims alleged below and the rights
and liabilities of ALL the parties to the action or
consolidated actions below?
Yes
25. If you answered "No" to question 24, complete
the following:
N/A
26. If you answered “No” to any part of question 25,
explain the basis for seeking appellate review
(e.g., order is independently appealable under
NRAP 3A(b)):
N/A
27. Attach file-stamped copies of the following docu­
ments:
•

The latest-filed complaint, counterclaims, cross­
claims, and third-party claims

•

Any tolling motion(s) and order(s) resolving
tolling motion(s)

App.91a

•

Orders of NRCP 41(a) dismissals formally
resolving each claim, counterclaims, cross-claims
and/or third-party claims asserted in the action
or consolidated action below, even if not an issue
on appeal

•

Any other order challenged on appeal

•

notices of entry for each attached order
VERIFICATION

I declare under penalty of perjury that I have
read this docketing statement, that the information
provided in this docketing statement is true and
complete to the best of my knowledge, information
and belief, and that I have attached all required doc­
uments to this docketing statement.
James R. LaFrieda and Ellen A. LaFrieda
Name of Appellant
Arthur A. Zorio
Name of Counsel of Record

/s/ Arthur A. Zorio
Signature of Counsel of Record

Date: 9/25/2017
Washoe County, Nevada

App.92a

CERTIFICATE OF SERVICE
I certify that on the 25th day of September, 2017,
I served a copy of this completed docketing statement
upon all counsel of record:
•

By mailing it by first class mail with sufficient
postage prepaid to the following address(es):
(NOTE: If all names and addresses cannot fit
below, please list names below and attach a
separate sheet with the addresses.)
Douglas R. Brown, Esq.
Robert L. Eisenberg, Esq.
Lemons, Grundy & Eisenberg
6005 Plumas Street,
Suite 300
Reno, Nevada 89509
/s/ Jeff Tillison
Employee of Brown stein
Hyatt Farber Schreck, LLP

App.93a

APPELLANTS’ PETITION FOR REHEARING
(MARCH 18, 2019)
IN THE SUPREME COURT OF
THE STATE OF NEVADA

JAMES R. LAFRIEDA; and ELLEN A. LAFRIEDA,
Appellants,
v.
NANCY A GILBERT, an Individual,
Respondent.
Consolidate Appeals Nos. 73888, 74565, 74942
Appeal from the Second Judicial
District Court, County of Washoe
The Honorable David A. Hardy, District Judge
District Court Case No. CVl3-00291

Arthur A. Zorio
Brownstein Hyatt Farber Schreck, LLP
Nev. Bar No. 6547
5371 Kietzke Ln.
Reno, Nevada 89511
(775) 324-4100
azorio@bhfs.com
Attorneys for Appellants
James R. LaFrieda and Ellen A. LaFrieda

$

App.94a

NRAP 26.1 DISCLOSURE
The undersigned counsel of record certifies that
the following are persons and entities as described in
NRAP 26(a), and must be disclosed. These represent­
ations are made in order that the justices of this court
may evaluate possible disqualification or recusal.
Identification of Appellants’ Parent Corporations:
Not Applicable. Appellants are individuals.
Identification of Appellants’ Attorneys: The follow­
ing are names of all law firms whose partners or
associates have appeared or who are expected to
appear in this action on behalf of Appellants James
LaFrieda and Ellen LaFrieda (including proceedings
in the district court):
District Court Proceedings (for the underlying
construction defect action):
(1) Bradley J. Epstein, Esq.
Angius & Terry, LLP
(2) Nancy A. Gilbert, Esq.
Nancy A. Gilbert
(3) James Shields Beasley, Esq.
Law Offices of James Shields Beasley
(Also represented Appellants on appeal of
the underlying construction defect action)
District Court Proceedings (the instant legal
malpractice action):
Arthur A. Zorio, Esq.
Adam McMillen, Esq.
Brownstein Hyatt Farber Schreck, LLP

App.95a

The instant Appeal:
Arthur A. Zorio, Esq.
Brownstein Hyatt Farber Schreck, LLP

Dated: March 18, 2019
Brownstein Hyatt Farber
Schreck, LLP

By: Arthur A. Zorio________
5371 Kietzke Lane
Reno, NV 89511
Attorneys for Appellants
James R. LaFrieda and
Ellen A. LaFrieda

App.96a

I.

Summary

Appellants James R. LaFrieda and Ellen A. LaFrieda, petition this Court en Banc pursuant to
NRAP 40 for a rehearing of its Order of Affirmance
filed February 26, 2019. This Petition is made on the
grounds that this Court has (A) overlooked or mis­
apprehended a material fact in the record or a
material question of law in the case, and (B) overlooked,
misapplied or failed to consider a statute, procedural
rule, regulation or decision directly controlling a
dispositive issue in the case. NRAP 40(c)(2)(A-B).
This Court overlooked or misapprehended a
material fact in the record when it stated “the LaFriedas sued Gilbert for legal malpractice in sending
the letter to Robison.” Order, at 2. The LaFriedas
sued Gilbert because her statements were false. The
LaFriedas’ Complaint states:
Contrary to defendant Nancy Gilbert’s state­
ment that “Both retained experts, at this
time, do not point to BCI as to slab liabil­
ity,” it was then and always had been the
expert opinion of John Siino since the date
on which plaintiffs filed their original Com­
plaint on April 15, 2008, that defendant
Building Concepts, Inc., had been negligent
in the design of plaintiffs’ slab-on-grade con­
crete floor and that this negligence had
resulted in the constructional defects in that
slab-on-grade concrete floor.
1AA_0014/11-/16. The LaFriedas alleged that “defend­
ant Nancy Gilbert, either intentionally or negligently,
misrepresented .. . that. . . [b]oth retained experts, at
this time, do not point to BCI, as to slab liability.”

App.97a

lAA_0018/14-/20. Gilbert manufactured false evidence
that never would have existed but for her malprac­
tice, she did not merely send a letter.
This Court overlooked, misapplied, or failed to
consider controlling dispositive rules of construction
when it says that Rule 50(b)’s language “made at the
close of all the evidence” is ambiguous. The plan lan­
guage of the rule “made” communicates a motion
must be made, and “at the close of all the evidence,”
clearly states the time that the motion must be made
in order to preserve a right to “make” a post-verdict
motion. No legal authority interpreting the same lan­
guage in the 1991 version of the Federal Rule 50(b)
has found it to be ambiguous; Opening Brief (“OB”),
25/16-/27; this Court 53 years ago did not find the
same language to be ambiguous, Lehtola v. Brown Nev.
Corp., 82 Nev. 132, 136 (1966); Reply Brief (“RB”), 34; and such a construction improperly renders “made
at the close of all the evidence” without meaning. OB,
24/23-25/-1, 26/8-/16.
This Court overlooked the fact that the Jury was
charged in Jury Instruction 33, to determine if the
LaFriedas would have done better in a trial against
BCI. 38AA_4498. Whether Appellants would have done
better at settlement was not the sole issue before the
jury. Id.
This Court has overlooked, misapplied, or failed
to consider the dramatic and unprecedented change
in tort law that it suggests in requiring a subjective
standard of causation in legal malpractice cases. OB,
28-29. According to this Court, all of the evidence
admitted on the issue of causation through Messrs.
Beasley, Taylor, and LaFrieda are wholly irrelevant.
This Court has pronounced that the sole relevant evi-

App.98a

dence is direct, subjective testimony of the adverse
party, BCI. No authority in Nevada jurisprudence has
ever held such a subjective causation standard to be
the law. Only an objective standard was charged to
the Jury. Gilbert never requested a subjective standard
jury instruction.
This Court overlooked or misapprehended a
material fact in the record when it stated “We need
not address the LaFriedas’ argument that the district
court should have ruled as a matter of law that Gilbert
breached her standard of care when she failed to obtain
a certificate of merit against Summit.” Order, at 5.
The LaFriedas never made that argument to this Court.
At page 61 of the Opening Brief, the LaFriedas state
they are relying on the standard of plain error, not
review of a non-existent rule 50 motion. OB, 61/2-/20.

II. Facts
The Court appears to misapprehend a seminal fact
that led to the Jury’s finding of malpractice. Ms.
Gilbert’s statement was false. She stated “[bloth
retained experts, at this time, do not point to BCI, as
to slab liability. John Siino is currently evaluating
whether BCI may have liability for undersized foun­
dations. ...” 6AA_0810.
Mr. Siino confirmed Ms. Gilbert’s statement was
a knowingly false statement. He testified that he
always opined that BCI was liable for the faulty slabon-grade and the negligent design of the perimeter
foundations at the LaFrieda home, since 2008.
32AA_3606 (“In [ ] Reports, dated February 15, 2008,
I clearly set forth the facts which supported by [sic.]
opinion that BCI had been negligent in its preparation
of the plans and specifications. . . . ”); 32AA_3610

App.99a

(“Based upon my Observations and Calculations, as
set forth in my Reports ... it was my considered
expert opinion that BCI had been negligent in its
preparation of the plans and specifications. . . . ”);
32AA_3613 (“I do not know to whom Nancy Gilbert was
referring in her letter, dated February 15, 2011, when
she said that ‘Both retained experts, at this time, do
not point to BCI, as to slab liability.’ However, what I
do know is that, if Nancy Gilbert intended such a
statement to refer to me, her statement is not
it has always been my considered expert
accurate
opinion that BCI had been negligent in its preparation
of the plans and specifications for the slab-on-grade
concrete floors. . . . My opinion has never changed.”).
Mr. Mark Gunderson testified in his expert opinion
that Ms. Gilbert’s conduct fell below the standard of
care because Ms. Gilbert’s statements about the experts
not finding liability regarding BCI “was false and
misleading.” 2AA_0442/15-/18.
This Court appears to have the mistaken impres­
sion that the malpractice was disclosure of truthful
statements about the circumstances that an adverse
party may have otherwise discovered when it refers
to the malpractice as “as sending the letter to Rob­
ison” and “that Gilbert may have erred by publishing
the letter,” Order of Affirmance at 2, 6 (emphasis
added). However, Gilbert did not make truthful state­
ments; she manufactured false facts. The malpractice
was manufacturing of evidence, which was contrary to
the truth. That manufactured evidence was admissible
against the LaFriedas in the case against BCI to
attack the merits of the case. Were it not for Gilbert’s
manufactured, false evidence, BCI would never have
been able to use evidence from any source to argue

App.lOOa

that “[bloth retained experts ... do not point to BCI,
as to slab liability.” 6AA_0810.
One can imagine if this Court believed that
Gilbert’s statement was something truthful it could
not have caused damage. However, viewed in the light
most favorable to the LaFriedas and properly under­
stood that the statements were false, one better under­
stands how the Jury properly concluded the false state­
ments seriously affected the merits of the case. One
cannot rationally say such false statement regarding
the merits of the case emanating from a party’s counsel
do not affect the merits of the case.
III. Argument
A. Holding NRCP 50(b) to be Ambiguous Is
Contrary to Well Established Rules of Const­
ruction
Under long established principles of statu­
tory construction, when a statute is suscep­
tible to but one natural or honest construc­
tion. that alone is the construction that can
be given. . . . We have also consistently held
that where there is no ambiguity in a statute,
there is no opportunity for judicial construc­
tion and the law must be followed regardless
of result. . . . [f] We are constrained by the
above rules of statutory interpretation. The
view with the most interpretational integrity
and which takes the statutory language at
face value is the view that concludes the
statute means what it says despite its poten­
tial for incommensurate hardship.

App.lOla

Randono v. Cuna Mutual Ins. Group, 106 Nev. 371,
374 (1990) (citations omitted; emphasis added).
NRCP 50(a) states how and when a motion for
directed verdict may be made during trial. NRCP 50(b)
proscribes the necessary conditions precedent for a
directed verdict motion post-verdict: “If. . . . the court
does not grant a motion . . . made at the close of all the
evidence, the court is considered to have submitted the
action to the jury subject to the court’s later deciding
the legal questions raised by the motion. . . . The movant
may renew its request... after service of written notice
of entry of judgment.” NRCP 50(b) (emphasis added).
The only way to preserve the right to make a 50(b)
motion post-verdict is to first make a motion at the
close of all the evidence. 9-50 Moore’s Federal Prac­
tice—Civil § 50.20 (2016) (“to preserve the right to see
a post-verdict judgment as a matter of law, a party
should move for judgment at the close of all the evi­
dence”); Mathieu v. Gopher News Co., 273 F.3d 769,
777 (8th Cir. 2001) (“It is well established that judg­
ment as a matter of law following a jury verdict
cannot be had by a party who fails to renew its
motion, pursuant to Rule 50(b), at the close of all the
evidence.”). OB, 24-26.
Once this Court conceded that NRCP 50(b) clearly
says that a post-verdict motion is not appropriate
unless it was preceded by a distinct motion made at
the close of all the evidence, its analysis should have
stopped and the District Court’s Order vacated. Order
ofAffirmance at 4 (“This is. after all, what NRCP 50
(b) says.”) (emphasis added). This construction is the
only natural or honest construction of NRCP 50(b).
Randono, 106 Nev. at 374 (“there is no opportunity

App.l02a

for judicial construction and the law must be followed
regardless of result”).
The rule does not state that the motion could be
made at any time; it clearly and unambiguously states
the only time the motion must be made. Further, only
the motion “made at the close of all the evidence,” if
not granted, is considered to remain under considera­
tion for the court later to rule on the questions of law by
a renewed post-verdict motion. Such reservation does
not exist for a motion made at the close of Plaintiff s
case in chief, particularly in a case such as this one
where the District Court made an express finding
that there was sufficient evidence. 37AA_4252/l-/3.
This Court’s ipsi dixit conclusion that NRCP 50(b)
is nonetheless ambiguous is not supported by any
language or principal of construction. Such an interpre­
tation is contrary to well established rules that this
Court will avoid an interpretation that “renders lan­
guage meaningless or superfluous.” Hobbs v. State, 127
Nev. 234, 236 (2011); George J. v. State, 128 Nev.
345, 348 (2012); OB, 24-25. This Court’s interpreta­
tion renders “made at the close of all the evidence”
wholly without meaning.
The Court provides no analysis whatsoever of what
language in the other stand-alone sections of Rule 50
render 50(b) ambiguous. No language in the Rule is
referred to that would abrogate or render meaningless
the language “made at the close of all evidence” in
NRCP 50(b). To say that the “ambiguity is quickly
resolved upon an examination,” Order at 4, of the
drafter’s note is non-sequitur. This Court’s circular
argument is that drafters of NRCP 50(b) (and the
corresponding 1991 Federal Rule) knew the rule was
ambiguous and instead of drafting a rule which has

App.l03a

the plain meaning intended, chose to render mean­
ingless “made at the close of all the evidence” by
making a comment in a drafter’s note. No rule of
statutory construction supports such an interpretation.
Furthermore, this Court has said multiple times
that “Federal cases interpreting the Federal Rules of
Civil Procedure ‘are strong persuasive authority,
because the Nevada Rules of Civil Procedure are based
in large part on their federal counterparts.’” Exec.
Mgmt. v. Ticor Title Ins. Co., 118 Nev. 46, 53 (2002)
(Rule 39), quoting Las Vegas Novelty v. Fernandez,
106 Nev. 113, 119 (1990) (Rule 65); McClendon v.
Collins, 372 P.3d 492, 494 (2016) (Rule 26); Ford v.
Branch Banking & Trust Co., 131 Nev. Adv. Rep. 53,
353 P.3d 1200, 1202, (2015) (Rule 60).
This Court cannot ignore all of the Federal case
authority and treatises cited in the record interpreting
the clear and unambiguous language of the prior
Federal Rule 50(b). Farley Transp. Co. v. Santa Fe
Trail Transp. Co., 786 F.2d 1342, 1346 (9th Cir. 1985);
OB, 25; RB, 5.
If NRCP 50(b) were appropriately interpreted in
accord with the Order, there would have been no need
for this Court to order that Rule amended effective
March 2019 to conform to the current Federal Rule
which expressly removed “made at the close of all the
evidence” from 50(b). ADKT 522; Fed. R. Civ. P. 50,
Advisory Committee Note 2006; Norman J. Singer, 1A
Sutherland Statutory Construction, § 22.29 at 264
(7th ed. 2018) (“When a statute is amended and words
are omitted, courts presume the legislature intended
the statute to have a meaning different from the one
it had before amendment”); RB, 5.

App.l04a

This Court did not find the same language (“made
at the close of all evidence”) ambiguous when it
interpreted that language 53 years ago, concluding a “motion must be made at the close of all the evidence
if the movant wishes later to make a post-verdict
motion under that rule.” Lehtola, 82 Nev. at 136.
This Court cannot now claim the same language is
ambiguous. RB, 4-5.
This Court should conclude that Rule 50(b) is
clear and unambiguous, and vacate the District Court’s
Order because the post-verdict motion was improper.
B. Judgment as a Matter of Law Should Be
Reversed and the Verdict in Favor of Appel­
lants for $265,000 Reinstated
In Bally’s Employees’ Credit Union v. Wallen,
105 Nev. 553, 555-56 (1989), this Court made it clear
that “a jury’s verdict supported by substantial evidence
will not be overturned unless the verdict is clearly
erroneous when viewed in light of all the evidence
presented.” (emphasis added). The “court must view
the evidence and all inferences most favorably to the
party against whom the motion [was] made.” Bliss v.
De Prang, 81 Nev. 599, 601 (1965).
First, this Court has overlooked a material fact
in the record: The Jury was charged with determining
if the LaFriedas would have done better at trial against
BCI. 38AA_4498. The issue before the jury was not
limited to whether Gilbert’s false statements of fact
diminished the amount they should have recovered in
settlement. The Jury properly determined the only
evidence admitted led to the conclusion that the
LaFriedas would have done better at trial against
BCI. The $265,000 verdict should be reinstated.

App.l05a

Second, this Court has overlooked or misappre­
hended a material question of law. This Court’s
unpublished Order in this case holds that to prevail
in a case of legal malpractice where the malpractice
consists of creating damning, false, evidence usable at
trial against the client: the former adverse party
must testify that it hypothetically and subjectively,
would have paid more money in settlement if it were
not for the damning evidence wrongly created by the
attorney. Subjective causation is not a part of any
tort in Nevada. OB, 28-29.
Gilbert never requested a Jury Instruction on
subjective causation. Gilbert has not challenged the
objective causation jury instructions given to the Jury.
Despite the clear rules for analyzing a Rule 50
motion, the District Court and this Court have, post­
verdict, and without objection at trial, determined
that all of the evidence of causation admitted from
Messrs. Beasley, Taylor and LaFrieda are wholly
irrelevant in contravention of Whiteman v. Brandise,
78 Nev. 320, 322 (1962) (inappropriate post-verdict to
object to evidence admitted); RB, 16. At the close of
Plaintiffs case-in-chief, the District Court recognized
that there was substantial evidence supporting the
LaFriedas’ claim against BCI. 37AA_4252/l-/3. Prior
to that, the Court acknowledged that the “Jury will
decide the extent to which the letter changed the
value of the settlement.” 2AA_0367/16. Causation is
necessarily a question for the Jury alone. Nehls v.
Leonard, 97 Nev. 325 (1981).

App.l06a

1. The Jury Properly Determined the LaFriedas
Would Have Done Better at Trial Against BCI
This Court has completely ignored the fact that the
Jury was charged with determining whether the
LaFriedas would have recovered more at trial against
BCI if it were not for Gilbert’s false statements
regarding the merits of the case. 38AA_4498 (Jury
Instruction 33); RB, 23-24; OB, 29-32. This Court and
the district court are required to examine the sufficiency
of all evidence actually admitted during trial. Whiteman, 78 Nev. at 322. However, the district court and
this Court have failed to do so.
The Jury was charged with determining whether
the LaFriedas would have received a better result
against BCI at trial. 38AA_4498. The sole evidence
presented to the jury was that BCI was liable for the
negligent design of the slab-on-grade and perimeterfootings. Mr. John Siino testified that he always opined
that BCI was liable for the faulty slab-on-grade and
the negligent design of the perimeter-footings at the
LaFrieda home. 32AA_3606; 32AA_3610; 32AA_361314. Mr. Siino’s testimony that BCI was liable was
admitted without objection and was unrefuted.
The sole evidence before the jury was that removal
and replacement of just the slab-on-grade negligently
designed by BCI (not including the perimeter-footings
negligently designed by BCI) would cost in excess of
$463,814. 1ARA_0049/18-50/1; lARA_0057/57-15/17.
Therefore, if the District Court and this Court
were to examine the evidence in a light most favorable
to the LaFriedas, it must conclude that there was
sufficient evidence to support the jury’s verdict that
the LaFriedas would have done better at trial against

App.l07a

BCI than the mere $33,000 they received. The Jury’s
Verdict in the amount of $265,000 should be rein­
stated.1
2. The Court has overlooked the District Court’s
Finding of Fact
In its pre-trial Order, the District Court conceded
causation regarding BCI’s liability was not an issue
of fact for the trial: “Mr. Sperber will not testify as to
BCI’s underlying liability, which has already been
established.” 2AA_367/21-/22 (emphasis added).
On February 21, 2017, Gilbert’s Rule 50(b) motion
was denied specifically because: “there is evidence
that a Jury can consider, and the attorneys may argue.”
37AA_4252/l-/3.
1 It is notable that this Court relies on Orrick Herrington &
Sutcliffe LLP v. Superior Court, 132 Cal. Rptr. 2d 658, 661 (Cal.
Ct. App. 2003). In Orrick, the Court stated that it “is well estab­
lished that when legal malpractice involves negligence in the
prosecution or defense of a legal claim, the case-within-a-case
methodology must be used.” Id. at 659. Orrick involved a claim
of legal malpractice regarding a settlement of a divorce action
and the Court of Appeal stated that the claimant must produce
evidence “showing his ex-wife would have settled for less than
she did, or that following a trial, he would have obtained a judg­
ment more favorable than the settlement.” The Orrick case also
never limited evidence to testimony from the adverse party in
the case below. It was only critical of the plaintiff for producing
no evidence whatsoever—contrary to the case at bar.
Additionally, in the case at bar, the District Court prohibited the
LaFriedas from litigating a case-within-a-case against BCI as
argued in the Opening Brief at 48-49 citing McCarthy v. Pederson
& Houpt, 621 N.E.2d 97 (Ill. Ct. App. 1993); Suder v. Whiteford,
Taylor & Preston, LLP, 992 A.2d 413, 419-30 (Md. 2010);
Piscitelli v. Friedenberg, 87 Cal.App.4th 953, 974 (Cal. Ct. App.
2001).

App.l08a

Respectfully, it cannot be said that there was not
sufficient evidence when the District Court, itself,
conceded that BCI is liable prior to trial and there
was sufficient evidence for the jury to find that the
LaFriedas should have obtained more. Additionally,
the District Court conceded that Gilbert’s false state­
ments were damaging. 43AA_5577/25-78/3. These unde­
niable facts should cause this Court a great deal of
concern when the District Court makes a contrary
decision post-verdict, having not given any opportunity
to cure any putative perceived defect in the evidence.
3. Subjective Causation Is Not and Should Not be

the Law
This Court’s holding is that direct, subjective,
evidence of causation in the form of testimony from
an adverse party is the ONLY relevant evidence to
establish causation. A standard of subjective causation
is not supported by any prior Nevada Supreme Court
case. It was not contained in the Jury Instructions,
and Gilbert has not challenged the sufficiency of the
jury instructions to dispute the law charged to the
Jury. This Court’s Order constitutes a major change
in Nevada tort law.
The only time subjective causation tends to come
up in legal texts is in medical malpractice “informed
consent” cases. Given NRS 41A.110, it is highly unlikely
it would ever come up in Nevada. Nonetheless, the
overwhelming majority of those courts confronted with
the argument to apply subjective causation reject it
and apply an objective causation requirement: “The
majority rule on causation [in medical malpractice
informed consent cases] asks whether a reasonable
person would have consented to the proposed treatment

App.l09a

had he or she been informed of the attendant risks.”2
In 1972 the District of Columbia decided Canterbury
v. Spence, 464 F.2d 772, 790-91 (D.C. Cir. 1972)
(rejecting a subjective standard in medical malpractice
informed consent cases).
Like intent in criminal cases, decisional causation
can also be proven by the surrounding circumstances.
See e.g. Crawford v. State, 92 Nev. 456 (1976), OB,
28. Like intent in discrimination cases, decisional caus­
ation can also be proven by the surrounding circum­
stances. USPS Bd. of Governors v. Aikensm, 460 U.S.
711, 714 (1983). OB, 29.
Likewise, decisional causation in settlement nego­
tiations in a legal malpractice case such as this one
can also be proven by the surrounding circumstances
as the District Court instructed the Jury in the case
at bar. This is, after all, the objective standard of
causation that the District Court charged the Jury
with. See, 38AA_4470 (regarding direct and circum­
stantial evidence: “You are entitled to consider both
kinds of evidence. The law permits you to give equal
weight to both”); 38AA_4480 (“preponderance of the
evidence”); 38AA 4484 (proximate cause is limited to
2 See Samuel Oddi, Reverse Informed Consent: The Unreasonably
Dangerous Patient, 46 Vand. L. Rev. 1417, 1428 (1993); Schreiber
v. Physicians Ins. Co. of Wis., 588 N.W.2d 26, 33 (Wis. 1999) (in
informed consent case, “this court has agreed with the majority
of American jurisdictions in employing what is known as the
‘objective test’”); Aronson v. Harriman, 901 S.W.2d 832, 841 (Ark.
1995) (in an informed consent case, the objective test is the
majority rule). “The objective test focuses on what the attitudes
and actions of the reasonable person in the position of the
patient would have been rather than on what the attitudes and
actions of the particular patient of the litigation actually were.”
Schreiber, 588 N.W.2d at 33.

App.llOa

foreseeable consequences); 38AA_4485 (legal cause is a
“substantial factor in bringing about the injury, damage,
loss or harm.”).
Application of an objective standard of causation
necessarily results in a conclusion that the Jury had
ample evidence before it to prove that a reasonably
prudent person in the position of BCI would have
paid more money in settlement had it not been for
Gilbert having manufactured false evidence in favor
of, and emboldening BCI’s case. Mr. Beasley’s testimony
alone was sufficient to support the Jury’s verdict. Mr.
Beasley testified with the authority of decades of
experience in construction defect litigation, a short
trial judge, and as a AAA arbitrator, without objection,
that Respondent’s false statements were extremely
detrimental to the merits of the case, 3lAA_3249/2/80. He testified that Appellants were entitled to
$601,000 in damages in a world where Respondent’s
damning statements did not exist. 3lAA_3316/22-/24.
Mr. Gill testified that the removal and replacement
of solely the slab-on-grade concrete would cost the
LaFriedas $463,814. 1ARA_0057/17.
The Jury was able objectively to consider the cir­
cumstances: that Appellants were entitled to $601,
000; settled for $33,000; there were other risks involved
in the litigation; and then make a determination as
to the effect Gilbert’s false statements would have
had on a reasonable person in the position of BCI to
settle for more.
The fallacy of requiring a subjective causation
test for a legal malpractice claim is that it places the
fact-finder in the position of deciding whether a
speculative answer to a hypothetical question (“would
you have paid more if Ms. Gilbert had not manufactured

App.llla

false evidence”) is to be credited. See e.g. Canterbury,
464 F.2d at 791. It also places an insurmountable
burden upon the plaintiff: presumably no recovery
could be had unless the prior adverse party belatedly
concedes it would have paid more. Such a case hinges
therefor on one person’s testimony.
This Court’s adoption of a subjective causation
test for legal malpractice actions is not warranted by
prior Nevada jurisprudence. It is not supported by
the jury instructions given by the District Court—
thereby sandbagging the LaFriedas by applying a legal
standard that never existed. The District Court was
wrong to apply a subjective causation test post-verdict.
This Court should not apply one on appeal.
C. Appellants Are Entitled to Have a Jury
Determine Punitive Damages
Respectfully, this Court has misconstrued the
facts supporting punitive damages. This Court makes
the statement that: the “record is devoid of any evidence
showing that Gilbert acted with malicious intent.”
Order of Affirmance, n. 3. The LaFriedas specifically
argued to this Court:
The evidence also supports a conclusion that
Respondent’s conduct was intended to injure
her clients, or constituted despicable conduct
which was engaged in with a conscious dis­
regard of the rights of her clients. Evidence
of Respondent’s fraud, malice, and conscious
disregard is illustrated by her making false
statements knowing the harmful consequen­
ces of her actions, and willfully and delib­
erately failing to avoid the consequences that
she knew would result.

App.ll2a

OB, 55/17-/24. Gilbert did not refute any of the nefar­
ious acts of fraud that she engaged in (intentional mis­
representations, deception and concealment of material
facts) and it is up to the Jury to determine if there is
clear and convincing evidence of violations NRS
42.001(1-2), 42.005. See OB, 57/16-60/7 (wrongful acts
enumerated).
Since this Court overlooked the fact that Gilbert’s
statements were false, this Court can now re-review
the nefarious acts of Ms. Gilbert delineated in the
Opening Brief. These acts were done in conscious dis­
regard of the foreseeable damages and to conceal
that the statements she made were false.
The matter should be remanded for a jury to view
the evidence and award punitive damages.
D. This Court Has Overlooked That the LaFriedas
Argued to Have the Plain Error Standard Apply
Footnote 2 of the Order of Affirmance has no basis
in the record. The LaFriedas never contended that
the District Court erred in failing to grant the La­
Friedas a directed verdict. The LaFriedas did not
make a motion for directed verdict at any time during
trial. In the Opening Brief, they made it clear that
they were not relying upon merely a claim of sufficiency
of the evidence for the appeal of the matter regarding
Summit Engineering. Rather they made a claim based
upon the standard of plain error: “The following issue
is reviewed under the standard of plain error.” OB,
61/2-/8, citing Bradley v. Romeo, 102 Nev. 103, 105
(1986) and Williams v. Zellhoefer, 89 Nev. 579, 580
(1983). This Court has overlooked this fact and the
LaFriedas are entitled to have the injustice cured

App.ll3a

and proceed against Gilbert for the fees she wrongly
charged the LaFriedas.
It is abundantly clear, and has not been disputed
by any fact or legal authority, that Ms. Gilbert’s fail­
ure to comply with NRS 40.6884 and 40.6885 led to
Appellants suffering $40003 in damages in the form of
attorney’s fees Ms. Gilbert collected for preparing the
inappropriate complaint against Summit Engineer­
ing and opposing a meritorious motion to dismiss the
claim due solely to her failure to comply with the law.
19-2lAA_2133-2355; 2lAA_2356-2385; 30AA_29312936.
IV. Conclusion
The verdict should be reinstated, and the case
remanded for a trial on punitive damages and Gilbert’s
liability for the fees charged to the LaFriedas caused
by her failure to obtain a certificate of merit.

3 35AA_3903, 3908-911; 3lAA_3370/2-12.

App.ll4a

CERTIFICATE OF COMPLIANCE
I hereby certify that this brief complies with the
formatting requirements of NRAP 32(a)(4), the type­
face requirements of NRAP 32(a)(5) and the type style
requirements of NRAP 32(a)(6) because:
• This brief has been prepared in a proportionally
spaced typeface using Microsoft Word version
2010 in 14 pt Times New Roman font.
I further certify that this brief complies with the
page-or type-volume limitations of NRAP 32(a)(7)(A)(ii)
because, excluding the parts of the brief exempted by
NRAP 32(a)(7)(C), it is either:
• Proportionately spaced, has a typeface of 14
points or more, Times New Roman font, and
contains 4647 words (no more than 4,667 words);
or
Finally, I hereby certify that I have read this
appellants’ reply brief, and to the best of my know­
ledge, information, and belief, it is not frivolous or
interposed for any improper purpose. I further certify
that this brief complies with all applicable Nevada
Rules of Appellate Procedure, in particular NRAP
28(e)(1), which requires every assertion in the brief
regarding matters in the record to be supported by a
reference to the page and volume number, if any, of
the transcript or appendix where the matter relied
on is to be found. I understand that I may be subject
to sanctions in the event that the accompanying brief
is not in conformity with the requirements of the
Nevada Rules of Appellate Procedure.

App.ll5a

Brownstein Hyatt Farber
Schreck, LLP

By: Arthur A. Zorio
5371 Kietzke Lane
Reno, NY 89511

Attorneys for Appellants
James R. LaFrieda and
Ellen A. LaFrieda
Dated: March 18, 2019

App.ll6a
THIRD AMENDED COMPLAINT
(FEBRUARY 24, 2010)
IN THE SECOND JUDICIAL DISTRICT COURT
OF THE STATE OF NEVADA
IN AND FOR COUNTY OF WAS HOE
REYNEN & BARDIS DEVELOPMENT
(Nevada) LLC,
Plaintiff,
v.
BARRY & SUZANNE STILWELL,
Defendant.
BARRY & SUZANNE STILWELL, GLENN SUAN,
MIKE & YOUNG SON, THOMAS G. & RACHAEL
EBERLE JAMES R. & ELLEN A. LA FRIEDA,
RICHARD TAYLOR, FRANK E. WILLIAMS
and ANN C SAVAGE,
Consolidated Plaintiff,
v.
REYNEN & BARDIS DEVELOPMENT
(Nevada) LLC, a Nevada Limited Liability Company;
REYNEN & BARDIS COMMUNITIES LLC,
a Nevada Limited Liability Company; REYNEN &
BARDIS COMMUNITIES INC., a California
Corporation; REYNEN & BARDIS COMMUNITIES,
(Nevada) INC. REYNEN & BARDIS

App.ll7a

(MT. ROSE ESTATES) LLC; REYNEN & BARDIS
CONSTRUCTION (Nevada) Inc.,;
UPPER HIGHLANDS OWNERS LLC,
a California Limited Liability Company;
WILCOX CANYON HOLDING LLC,
A Nevada Limited Liability Company
WEST RIVERPARK LP, a California Limited
Partnership; CEDAR VALLEY CONCRETE
CORPORATION OF NEVADA, a Nevada
Corporation; DAN MILLS CONSTRUCTION, INC,
a Nevada Corporation; EXPRESS PLUMBING,
FLEET HEATING & AIR INCORPORATED;
J&L WINDOWS, INC. a Nevada Corporation;
NEWELL ROOFING, INC., a Nevada Corporation
NORTHSCAPE CORPORATION,
a Nevada Corporation; PINNACLE DRYWALL &
STUCCO, INC. a Nevada Corporation;
RC ELECTRIC, LLC, a Nevada Limited Liability
Company; RIDDIO CONSTRUCTION COMPANY,
INC., a foreign Corporation; Q & D
CONSTRUCTION, INC. a Nevada Corporation;
SACRAMENTO INSULATION CONTRACTORS,
INC., dba GALE BUILDING PRODUCTS & ROOT
INDUSTRIES, a Foreign Corporation;
SHELTON ELECTRIC, an unknown entity;
STILZ TILE, an unknown entity;
SUPERIOR OVERLAND DOOR, a Nevada Corpora­
tion; SUMMIT ENGINEERING,
CORPORATION, a Nevada Corp.;
TOLIVER PLASTERING, INC. a Nevada
Corporation; BUILDING CONCEPTS, INC.
a Nevada Corporation; BLACK EAGLE
CONSULTING, INC, a Nevada Corporation;
DOES 1 through 50, inclusive

App.ll8a

ALL RELATED MATTERS
Case No. CV07-01717
Dept No.4
Consolidated With
Case No. CV07-01730
Case No. CV08-00971
Case No. CV08-00972
Case No. CV08-01141
Case No. CV08-02091
COMES NOW Plaintiffs and Consolidated Plain­
tiffs, by and through their attorney of record, Nancy
A. Gilbert, and allege as follows:
General Allegations
1. Plaintiffs, THOMAS G. & RACHAEL EBERLE,
are husband and wife and the purchasers and current
owners of real property commonly referred to as 5400
Napoleon Drive, Reno, Nevada 89511 and hereinafter
collectively referred to as “Plaintiffs and/or Consolidated
Plaintiffs.”
[...]
. . . installed at Plaintiffs’ and/or Consolidated Plain­
tiffs’ dwellings and real properties.
81. Plaintiffs and/or Consolidated Plaintiffs had
faith and confidence in TPI because it was a duly
licensed contractor and/or subcontractor and Plaintiffs
and/or Consolidated Plaintiffs relied on such status

App.ll9a

and upon its representations as hereinafter referred
to.
82. Plaintiffs and/or Consolidated Plaintiffs
James R. and Ellen A. La Frieda, and Richard Taylor
only, are informed and believe, and thereon allege
that Defendant, BUILDING CONCEPTS INC., (here­
inafter “BCI” “Subcontractor” or “Defendant”) is and
was a corporation organized and existing pursuant to
the laws of the State of Nevada, formed under and in
accordance with the laws of the State of Nevada, and
has conducted and/or still conducts business within
Washoe County, State of Nevada, including but not
limited to building, construction, provision of services,
design, engineering, and/or materials related to BCI
design and engineering work which had been imple­
mented and/or installed at Plaintiffs’ and/or Consolid­
ated Plaintiffs’ dwellings and real properties.
83. Plaintiffs and/or Consolidated Plaintiffs James
R. and Ellen A. La Frieda and Richard Taylor only
are informed and believe and thereon allege that at
all times material hereto, BCI was doing business as
a design professional, subcontractor and/or contractor
and that BCI had been issued a license as a design
professional, engineering professional, general con­
tractor and/or subcontractor by the State of Nevada,
and at all times mentioned herein was engaged in the
business of design, engineering, building, construction,
improvements, provision of services, and/or materials
related to, design and engineering components of the
concrete slabs and foundations installed at Plaintiffs’
and/or Consolidated Plaintiffs’ dwellings and real
properties.
84. Plaintiffs and/or Consolidated Plaintiffs
James R. and Ellen A. La Frieda and Richard Taylor

App.l20a

only had faith and confidence in BCI because it was a
duly licensed design and/or engineering professional,
contractor and/or subcontractor and Plaintiffs and/or
Consolidated Plaintiffs relied on such status and
upon its representations as herein after referred to.
85. Plaintiffs and/or Consolidated Plaintiffs James
R. and Ellen A. La Frieda are informed and believe,
and thereon allege that Defendant, BLACK EAGLE
CONSULTING, ....
[...]

.. -

App.l21a
FOURTH AMENDED COMPLAINT
(MAY 7, 2010)
IN THE SECOND JUDICIAL DISTRICT COURT
OF THE STATE OF NEVADA
IN AND FOR COUNTY OF WAS HOE
REYNEN & BARDIS DEVELOPMENT
(Nevada) LLC,
Plaintiff,
v.
BARRY & SUZANNE STILWELL,
Defendant.
BARRY & SUZANNE STILWELL, GLENN SUAN,
MIKE & YOUNG SON, THOMAS G. & RACHAEL
EBERLE JAMES R. & ELLEN A. LA FRIEDA,
RICHARD TAYLOR, FRANK E. WILLIAMS
and ANN C SAVAGE,
Consolidated Plaintiff,
v.
REYNEN & BARDIS DEVELOPMENT
(Nevada) LLC, a Nevada Limited Liability Company;
REYNEN & BARDIS COMMUNITIES LLC,
a Nevada Limited Liability Company; REYNEN &
BARDIS COMMUNITIES INC., a California
Corporation; REYNEN & BARDIS COMMUNITIES,
(Nevada) INC. REYNEN & BARDIS

App.l22a

(MT. ROSE ESTATES) LLC; REYNEN & BARDIS
CONSTRUCTION (Nevada) Inc.,;
UPPER HIGHLANDS OWNERS LLC,
a California Limited Liability Company;
WILCOX CANYON HOLDING LLC,
A Nevada Limited Liability Company
WEST RIVERPARK LP, a California Limited
Partnership; CEDAR VALLEY CONCRETE
CORPORATION OF NEVADA, a Nevada
Corporation; DAN MILLS CONSTRUCTION, INC,
a Nevada Corporation; EXPRESS PLUMBING,
FLEET HEATING & AIR INCORPORATED;
J&L WINDOWS, INC. a Nevada Corporation;
NEWELL ROOFING, INC., a Nevada Corporation
NORTHSCAPE CORPORATION,
a Nevada Corporation; PINNACLE DRYWALL &
STUCCO, INC. a Nevada Corporation;
RC ELECTRIC, LLC, a Nevada Limited Liability
Company; RIDDIO CONSTRUCTION COMPANY,
INC., a foreign Corporation; Q & D
CONSTRUCTION, INC. a Nevada Corporation;
SACRAMENTO INSULATION CONTRACTORS,
INC., dba GALE BUILDING PRODUCTS & ROOT
INDUSTRIES, a Foreign Corporation;
SHELTON ELECTRIC, an unknown entity;
STILZ TILE, an unknown entity;
SUPERIOR OVERLAND DOOR, a Nevada Corpora­
tion; SUMMIT ENGINEERING,
CORPORATION, a Nevada Corp.;
TOLIVER PLASTERING, INC. a Nevada
Corporation; BUILDING CONCEPTS, INC.
a Nevada Corporation; BLACK EAGLE
CONSULTING, INC, a Nevada Corporation;
DOES 1 through 50, inclusive

App.l23a

ALL RELATED MATTERS
Case No. CV07-01717
Dept No.4
Consolidated With
Case No. CV07-01730
Case No. CV08-00971
Case No. CV08-00972
Case No. CV08-01141
Case No. CV08-02091
COMES NOW Plaintiffs and Consolidated Plain­
tiffs, by and through their attorney of record, Nancy
A. Gilbert, and allege as follows:
General Allegations
1. Plaintiffs, THOMAS G. & RACHAEL EBERLE,
are husband and wife and the purchasers and current
owners of real property commonly referred to as 5400
Napoleon Drive, Reno, Nevada 89511 and hereinafter
collectively referred to as “Plaintiffs and/or Consolidated
Plaintiffs.”
2. Plaintiffs, MIKE SON and YOUNG SON, are
husband and wife and are the purchasers and current
owners of real property commonly referred to as 5385
Moulin Rouge
[...]
. . . Richard Taylor only, are informed and believe,
and thereon allege that Defendant, BUILDING
CONCEPTS INC., (hereinafter “BCI” “Subcontractor”

App.l24a

or “Defendant”) is and was a corporation organized
and existing pursuant to the laws of the State of
Nevada, formed under and in accordance with the laws
of the State of Nevada, and has conducted and/or still
conducts business within Washoe County, State of
Nevada, including but not limited to building,
construction, provision of services, design, engineering,
and/or materials related to BCI design and engineering
work which had been implemented and/or installed at
Plaintiffs’ and/or Consolidated Plaintiffs’ dwellings
and real properties.

'

83. Plaintiffs and/or Consolidated Plaintiffs
James R. and Ellen A. La Frieda and Richard Taylor
only are informed and believe and thereon allege that
at all times material hereto, BCI was doing business
as a design professional, subcontractor and/or contractor
and that BCI had been issued a license as a design
professional, engineering professional, general con­
tractor and/or subcontractor by the State of Nevada,
and at all times mentioned herein was engaged in the
business of design, engineering, building, construction,
improvements, provision of services, and/or materials
related to, design and engineering components of the
concrete slabs and foundations installed at Plaintiffs’
and/or Consolidated Plaintiffs’ dwellings and real
properties.
84. Plaintiffs and/or Consolidated Plaintiffs
James R. and Ellen A. La Frieda and Richard Taylor
only had faith and confidence in BCI because it was a
duly licensed design and/or engineering professional,
contractor and/or subcontractor and Plaintiffs and/or
Consolidated Plaintiffs relied on such status and
upon its representations as herein after referred to.

App.l25a

85. Plaintiffs and/or Consolidated Plaintiffs Janies
R. and Ellen A. La Frieda are informed and believe,
and thereon allege that Defendant, BLACK EAGLE
CONSULTING, INC., (hereinafter “BEC” “Subcon­
tractor” or “Defendant”) is and was a corporation
organized and existing pursuant to the laws of the
State of Nevada, formed under and in accordance
with the laws of the State of Nevada, and has
conducted and/or still conducts business within
Washoe County, State of Nevada, including but not
limited to building, construction, provision of services,
design, engineering, and/or materials related to BEC
which had been implemented and/or installed at
Plaintiffs’ and/or Consolidated Plaintiffs’ dwellings
and real properties.
[...]

App.l26a
FIFTH AMENDED COMPLAINT
(MAY 21, 2010)
IN THE SECOND JUDICIAL DISTRICT COURT
OF THE STATE OF NEVADA
IN AND FOR COUNTY OF WAS HOE
REYNEN & BARDIS DEVELOPMENT
(Nevada) LLC,
Plaintiff,
v.
BARRY & SUZANNE STILWELL,
Defendant.
BARRY & SUZANNE STILWELL, GLENN SUAN,
MIKE & YOUNG SON, THOMAS G. & RACHAEL
EBERLE JAMES R. & ELLEN A. LA FRIEDA,
RICHARD TAYLOR, FRANK E. WILLIAMS
and ANN C SAVAGE,
Consolidated Plaintiff,
v.
REYNEN & BARDIS DEVELOPMENT
(Nevada) LLC, a Nevada Limited Liability Company;
REYNEN & BARDIS COMMUNITIES LLC,
a Nevada Limited Liability Company; REYNEN &
BARDIS COMMUNITIES INC., a California
Corporation; REYNEN & BARDIS COMMUNITIES,
(Nevada) INC. REYNEN & BARDIS

App.l27a

(MT. ROSE ESTATES) LLC; REYNEN & BARDIS
CONSTRUCTION (Nevada) Inc.,;
UPPER HIGHLANDS OWNERS LLC,
a California Limited Liability Company;
WILCOX CANYON HOLDING LLC,
A Nevada Limited Liability Company
WEST RIVERPARK LP, a California Limited
Partnership; CEDAR VALLEY CONCRETE
CORPORATION OF NEVADA, a Nevada
Corporation; DAN MILLS CONSTRUCTION, INC,
a Nevada Corporation; EXPRESS PLUMBING,
FLEET HEATING & AIR INCORPORATED;
J&L WINDOWS, INC. a Nevada Corporation;
NEWELL ROOFING, INC., a Nevada Corporation
NORTHSCAPE CORPORATION,
a Nevada Corporation; PINNACLE DRYWALL &
STUCCO, INC. a Nevada Corporation;
RC ELECTRIC, LLC, a Nevada Limited Liability
Company; RIDDIO CONSTRUCTION COMPANY,
INC., a foreign Corporation; Q & D
CONSTRUCTION, INC. a Nevada Corporation;
SACRAMENTO INSULATION CONTRACTORS,
INC., dba GALE BUILDING PRODUCTS & ROOT
INDUSTRIES, a Foreign Corporation;
SHELTON ELECTRIC, an unknown entity;
STILZ TILE, an unknown entity;
SUPERIOR OVERLAND DOOR, a Nevada Corpora­
tion; SUMMIT ENGINEERING,
CORPORATION, a Nevada Corp.;
TOLIVER PLASTERING, INC. a Nevada
Corporation; BUILDING CONCEPTS, INC.
a Nevada Corporation; BLACK EAGLE
CONSULTING, INC, a Nevada Corporation;
DOES 1 through 50, inclusive

App.l28a

ALL RELATED MATTERS .
Case No. CV07-01717
Dept No.4
Consolidated With
Case No. CV07-01730
Case No. CV08-00971
Case No. CV08-00972
Case No. CV08-01141
Case No. CV08-02091
COMES NOW Plaintiffs and Consolidated Plain­
tiffs, by and through their attorney of record, Nancy
A. Gilbert, and allege as follows:
General Allegations
1. Plaintiffs, THOMAS G. & RACHAEL EBERLE,
are husband and wife and the purchasers and current
owners of real property commonly referred to as 5400
Napoleon Drive, Reno, Nevada 89511 and hereinafter
collectively referred to as “Plaintiffs and/or Consolidated
Plaintiffs.”
2. Plaintiffs, MIKE SON and YOUNG SON, are
husband and wife and are the purchasers and current
owners of real property commonly referred to as 5385
Moulin Rouge
[...]
. . . allege that Defendant, BUILDING CONCEPTS
INC., (hereinafter “BCI” “Subcontractor” or “Defend­
ant”) is and was a corporation organized and existing

App.l29a

pursuant to the laws of the State of Nevada, formed
under and in accordance with the laws of the State
of Nevada, and has conducted and/or still conducts
business within Washoe County, State of Nevada,
including but not limited to building, construction,
provision of services, design, engineering, and/or
materials related to BCI design and engineering work
which had been implemented and/or installed at
Plaintiffs’ and/or Consolidated Plaintiffs’ dwellings
and real properties.
83. Plaintiffs and/or Consolidated Plaintiffs
are informed and believe and thereon allege that at
all times material hereto, BCI was doing business as
a design professional, subcontractor and/or contractor
and that BCI had been issued a license as a design
professional, engineering professional, general con­
tractor and/or subcontractor by the State of Nevada,
and at all times mentioned herein was engaged in the
business of design, engineering, building, construction,
improvements, provision of services, and/or materials
related to, design and engineering components of the
concrete slabs and foundations installed at Plaintiffs’
and/or Consolidated Plaintiffs’ dwellings and real
properties.
84. Plaintiffs and/or Consolidated Plaintiffs
had faith and confidence in BCI because it was a
duly licensed design and/or engineering professional,
contractor and/or subcontractor and Plaintiffs and/or
Consolidated Plaintiffs relied on such status and
upon its representations as herein after referred to.
85. Plaintiffs and/or Consolidated Plaintiffs James
R. and Ellen A. La Frieda are informed and believe,
and thereon allege that Defendant, BLACK EAGLE
CONSULTING, INC., (hereinafter “BEC” “Subcon-

App.l30a

tractor” or “Defendant”) is and was a corporation
organized and existing pursuant to the laws of the
State of Nevada, formed under and in accordance with
the laws of the State of Nevada, and has conducted
and/or still conducts business within Washoe County,
State of Nevada, including but not limited to building,
construction, provision of services, design, engineering,
and/or materials related to BEC which had been
implemented and/or installed at Plaintiffs’ and/or
Consolidated Plaintiffs’ dwellings and real properties.
[...]

App.l31a
TRIAL TRANSCRIPT OF PROCEEDINGS—
RELEVANT EXCERPT
(FEBRUARY 14, 2017)
IN THE SECOND JUDICIAL DISTRICT COURT
OF THE STATE OF NEVADA IN AND
FOR THE COUNTY OF WASHOE
JAMES & ELLEN LA FRIEDA,
Plaintiffs,
v.
NANCY GILBERT,
Defendant.
Case No. CV13-00291
Department No. 15
Before: Hon. David A. HARDY, Judge.
[February 14, 2017 Transcript, p. 13]
... of Stillwell, Eberle, Suan, Son, Taylor and
La Frieda, naming you all. Then we specifically
made claims on behalf of Taylor and La Frieda
in other causes of action.”
So it’s true. You intended the Fifth Amended
Complaint to assert causes of action against Black
Eagle Consulting and Building Concepts, Incor­
porated for all the consolidated plaintiffs.

App.l32a

A.

Incorrect. The Savages aren’t mentioned. And
the BEC and BCI as to the grading and drainage
issues are the five homes that are in that e-mail.
Those are the homes that I say all of them. See
where it—

Q.

And you’re referring in that e-mail to extrapolating
the findings to include the slab.

A.

At that time there was a West Park case on
extrapolation. And I was giving Mr. Beasley in
April of 2011 a way—we had meetings, and I was
giving him a way to potentially get BCI back in,
which he eventually did get back in. So I was
giving him an analysis to use.

Q.

The reason I’m looking at that is, it doesn’t seem
like you needed another certificate of merit in
January of 2011; isn’t that true?

A.

No, that’s not true. We didn’t have a certificate
of merit as to the slabs and the foundation as to
the other homes.
[...]

App.l33a
TRIAL TRANSCRIPT OF PROCEEDINGS—
RELEVANT EXCERPT
(FEBRUARY 21, 2017)
IN THE SECOND JUDICIAL DISTRICT COURT
OF THE STATE OF NEVADA IN AND
FOR THE COUNTY OF WASHOE
JAMES & ELLEN LA FRIEDA,
Plaintiffs,
v.
NANCY GILBERT,
Defendant.
Case No. CV13-00291
Department No. 15
Before: Hon. David A. HARDY, Judge.
[February 21, 2017 Transcript, p. 39]
. . . Complaint is.
A.

A Complaint is a document filed by a person that
is aggrieved. And it lists the grievances. It lays
out facts, and then causes of action, whether it
be under terms of negligence, breach of warranty,
breach of various standards of care.

Q.

What is the date of this Fifth Amended Complaint?

A.

May 21st, 2010.

App.l34a

Q.

So this is after the March Siino affidavit that
we’ve been talking a lot about?

A.

Approximately two months.

Q.

Okay. If that affidavit and your affidavit, Mr.
Siino’s and your affidavit had intended to apply
to Black Eagle Consulting and Building Concepts,
Inc., would you have identified those defendants
as parties as to all plaintiffs? In other words,
every plaintiff in this case has a claim against
Black Eagle Consulting.

A.

Right. In a Complaint I would have—if the certif­
icate of merit was to apply to Black Eagle and
Building Concepts as to all of the homeowners, it
would have stated it in the Complaint.

Q.

Please turn to page 20, specifically paragraph
85.

A.

I’m there.

Q.

Okay. Now, paragraph 85 appears to be a general
allegation identifying Black Eagle Consulting as
to Mr. and Mrs. La Frieda.

A.

Correct.

Q.

If that—if you had intended Mr, Siino’s affidavit
and your affidavit to apply to everyone, how would
this paragraph have read?

A.

“Plaintiffs and consolidated plaintiffs.”

Q.

Okay.

A.

Without naming specifically James and Ellen La
Frieda.

App.l35a

Q.

And if you turn back to page—I believe it’s 18—
would it have read as the Summit allegation reads
in paragraph 73?

A.

Correct. “Plaintiffs and consolidated plaintiffs.”

Q.

So it would have identified just plaintiffs and/or
consolidated plaintiffs generally, without any
qualifier as to the La Friedas?

A.

Correct.

MR. BROWN: Thank you, Miss Gilbert.
That’s all the questions I have.
THE COURT: Recross.
[...]

App.l36a

EMAIL FROM NANCY GILBERT
TO JAMES LA FRIEDA CONFIRMING
ISSUANCE OF CERTIFICATE OF MERIT
TRIAL EXHIBIT 169
(APRIL 26, 2011)
Subject: FW: Mt Rose Estates
From: “Nancy Gilbert, Esq.”
<nancy@ngilbertlaw.com>
Date: 4/26/20111:00 PM
To:

“James R. La Frieda”
<lafrieda@earthlink. net>

Dear Jim
Jim Beasley came to our office today. I gave him
a copy of our binder of emails from you on specific
topics as to BEC and BCI so he can up to speed faster.
As well, he discussed that Nathan Aman and Jason
Peak had him believing that we did not bring claims
against BEC and BCI on behalf of all of the homeowners, not just you and Taylor. I think Jim finally
sees that we did. Here is how it went down. In
November of 2009, we amended the Complaint and
brought claims against BEC and BCI as to Taylor and
LaFrieda only. Then we received a Certificate of Merit
from John Siino on March 3, 2010 and on March 10,
2010 filed that with the Court. The Certificate of
Merit was as to all homes, including yours. His Certifi­
cate of Merit included all reports of John Siino’s for
which he also extrapolated as to all homes including
yours. In May of 2010, we filed our 5th Amended
Complaint. In Cause of Action therein numbers 9-11,
we specifically brought claims against BEC and BCI

App.l37a

on behalf of Stilwell, Eberle, Suan, Son, Taylor and
LaFrieda, naming you all. Then we specifically made
claims on behalf of Taylor and La Frieda in other causes of action.
On September 9, 2010, the Court issued an Order
saying BEC and BCI are in as parties and they cannot
continue to delay.
You can call Jim Beasley and confirm this. He is
going to file something with the Court to advise the
Judge because Aman and Peak are confusing the Judge
and has been trying to confuse Beasley.
Nancy Gilbert, Esq.

App.l38a

ALTERED EMAIL EXCHANGE
WITH NANCY GILBERT
(MARCH 9, 2011)
From:
Sent:

“Nancy Gilbert, Esq.”
<nancy@ngilb ertla w. com>
Wednesday, March 9, 2011 10:41 AM

To:

“James R. La Frieda”
“rtaylorzanchin@aol.com”;
“Tom
Eberle”
“Fanseal@aol.com”; Glenn Suan
Cc:
Nancy Gilbert
Subject: FW: Mt Rose Estates Siino BCI design

Dear Clients,
Below you will find John Siino’s analysis as to
BCI’s foundation (structural) issues. He had called us
back this last weekend and we asked him again to
please proceed to run the calculations for the foundation
system, which he did below. He did so this weekend
with limited time. The slab is not structural, and
therefore, it is limited to architectural issues, not struc­
tural issues. An architectural issue is one that is
visually, or cosmetically not good, but deals more with
the installation, like (CVC) not following BCI’s callouts
on the plans (i.e. not pouring a thick enough slab, not
placing control joints in the slab. It does not effect
the structural components of the residence.
The foundation issue, may present a different
situation.
Sincerely
Nancy Gilbert, Esq.

App.l39a

---- Original Message----From: John Siino [mailto:adv_eng@sbcglobal.net]
Sent: Tuesday, March 08, 2011 9:31 PM
To: Nancy Gilbert, Esq.
Subject: BCI design
Nancy,
This is a tough one. I ran some numbers based
on the BCI drawings, etc. and re-reviewed the Code. I
reviewed the concrete foundation design based on the
BCI drawings and re-reviewed the 1997 Uniform
Building Code (UBC). I reviewed the concrete founda­
tion design based on the BCI drawings and re­
reviewed the 1997 Uniform Building Code (UBC).
The following comments are restricted to the
foundation design and the foundation itself, which is
a structural element. As per our previous discussions,
the concrete slabs-on-grade are not a structural element
or issue, though they clearly have construction defects
(were poorly constructed).
BCI’s Foundation Design:
1. The BCI foundation design is a minimalist
design. The design meets only the minimum reinforcing
requirements spelled out in certain sections of the
Code, namely l-#4 bar (l/2-inch diameter) top and
bottom of the foundation as called out in Chapter 18
of the UBC.
2. The ratio of provided area of steel reinforcement
to cross-sectional area of the concrete is such that the
foundation must be considered and analyzed as an
“Unreinforced Concrete” foundation.

App.l40a

ORIGINAL EMAIL EXCHANGE
WITH NANCY GILBERT
- (MARCH 9, 2011)
From:
Sent:

“Nancy Gilbert, Esq.”
<nancy@ngilbertlaw.com>
Wednesday, March 9, 2011 10:46 AM

‘John Siino’
To:
Subject: RE: BCI design
Thank you John. I appreciate your assistance.
---- Original Message----From: John Siino [mailto:adv_eng@sbcglobal.net]
Sent: Tuesday, March 08, 2011 9:31 PM
To: Nancy Gilbert, Esq.
Subject: BCI design
Nancy,
I reviewed the concrete foundation design based
on the BCI drawings and re-reviewed the 1997 Uniform
Building Code (UBC).
The following comments are restricted to the
foundation design and the foundation itself, which is
a structural element. As per our previous discussions,
the concrete slabs-on-grade are not a structural element
or issue, though they clearly have construction defects
(were poorly constructed).
BCI’s Foundation Design:
1. The BCI foundation design is a minimalist
design. The design meets only the minimum reinforcing
requirements spelled out in certain sections of the
Code, namely l-#4 bar (l/2-inch diameter) top and

App.l41a

bottom of the foundation as called out in Chapter 18
oftheUBC.
2. The ratio of provided area of steel reinforcement
to cross-sectional area of the concrete is such that the
foundation must be considered and analyzed as an
“Unreinforced Concrete” foundation.
3. The UBC allows unreinforced concrete foun­
dation designs to be used in Seismic Zones 3 and 4
provided that they adequately designed. It is the
civil/structural engineering consultant’s responsibility
to adequately document and demonstrate the capacity
of the foundation design to resist the Code mandated
loading conditions. BCI’s design analysis and calcula­
tions did not provide any assessment of the adequacy
of the foundation under wind or earthquake loading
conditions.
4. I prepared simplified hand calculations, with
limited time and resources, and performed a review
and analysis of the unreinforced concrete foundation
assuming that the foundation concrete was intact and
not cracked. The strength of the unreinforced concrete
foundation to resist wind or earthquake forces (as
spelled out in the 1997 UBC) is marginal. My review
of the strength and adequacy of the unreinforced
concrete foundation was highly dependant upon
assumed effective lengths of foundation resisting the
design forces. I used an approach which gave the benefit
to the BCI design rather than an approach that would
be more harsh and lean toward demonstrating a
defective design. A much more detailed analysis taking
into account the elastic/plastic response of the soil is
necessary to clearly demonstrate the foundation design
adequacy or lack there of.

App.l42a

It is important to note however, that my analysis
was based on the assumption that the unreinforced
concrete foundation was not cracked and could act as
a longitudinal beam to redistribute forces and resist
uplift and bending. . . .

App.l43a

ATTORNEY EXPERT’S FEES & COST
(JULY 25, 2019)
Brownstein Hyatt Farber Schreck, LLP
410 Seventeenth Street
Suite 2200
Denver, CO 80202-4432
Phone: (303) 223-1100
Facsimile: (303) 223-1111
James LaFrieda
5380 Napoleon Drive
Reno, NV 89511
Invoice Date: July 25, 2019
Client/Matter: 019347.0001
RE: LaFrieda v. Gilbert
For Professional Services Rendered from Novem­
ber 3, 2016 through June 30, 2019
Total Fees
$780,149.00
Total Costs
$104,870.97
Total Amount Paid to
Brownstein Hyatt Farber Schreck

$881,030.32

Total Amount Paid to Trial Experts

$99,407.71

Total Amount Paid to BHFS and
Trial Experts

$980,438.03

